<html>
<title> - THE NO CHILD LEFT BEHIND ACT'S IMPACT ON INDIAN EDUCATION</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


 
       THE NO CHILD LEFT BEHIND ACT'S IMPACT ON INDIAN EDUCATION 

=======================================================================

                             FIELD HEARING

                               before the

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                              COMMITTEE ON
                          EDUCATION AND LABOR

                     U.S. House of Representatives

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

              HEARING HELD IN SACATON, AZ, APRIL 28, 2007

                               __________

                           Serial No. 110-28

                               __________

      Printed for the use of the Committee on Education and Labor


                       Available on the Internet:
      http://www.gpoaccess.gov/congress/house/education/index.html

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

34-605 PDF                     WASHINGTON : 2008 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
Washington, DC 20402-0001 

















































                    COMMITTEE ON EDUCATION AND LABOR

                  GEORGE MILLER, California, Chairman

Dale E. Kildee, Michigan, Vice       Howard P. ``Buck'' McKeon, 
    Chairman                             California,
Donald M. Payne, New Jersey            Ranking Minority Member
Robert E. Andrews, New Jersey        Thomas E. Petri, Wisconsin
Robert C. ``Bobby'' Scott, Virginia  Peter Hoekstra, Michigan
Lynn C. Woolsey, California          Michael N. Castle, Delaware
Ruben Hinojosa, Texas                Mark E. Souder, Indiana
Carolyn McCarthy, New York           Vernon J. Ehlers, Michigan
John F. Tierney, Massachusetts       Judy Biggert, Illinois
Dennis J. Kucinich, Ohio             Todd Russell Platts, Pennsylvania
David Wu, Oregon                     Ric Keller, Florida
Rush D. Holt, New Jersey             Joe Wilson, South Carolina
Susan A. Davis, California           John Kline, Minnesota
Danny K. Davis, Illinois             Cathy McMorris Rodgers, Washington
Raul M. Grijalva, Arizona            Kenny Marchant, Texas
Timothy H. Bishop, New York          Tom Price, Georgia
Linda T. Sanchez, California         Luis G. Fortuno, Puerto Rico
John P. Sarbanes, Maryland           Charles W. Boustany, Jr., 
Joe Sestak, Pennsylvania                 Louisiana
David Loebsack, Iowa                 Virginia Foxx, North Carolina
Mazie Hirono, Hawaii                 John R. ``Randy'' Kuhl, Jr., New 
Jason Altmire, Pennsylvania              York
John A. Yarmuth, Kentucky            Rob Bishop, Utah
Phil Hare, Illinois                  David Davis, Tennessee
Yvette D. Clarke, New York           Timothy Walberg, Michigan
Joe Courtney, Connecticut            Dean Heller, Nevada
Carol Shea-Porter, New Hampshire

                     Mark Zuckerman, Staff Director
                   Vic Klatt, Minority Staff Director
                                 ------                                

                    SUBCOMMITTEE ON EARLY CHILDHOOD,
                   ELEMENTARY AND SECONDARY EDUCATION

                   DALE E. KILDEE, Michigan, Chairman

Robert C. ``Bobby'' Scott, Virginia  Michael N. Castle, Delaware,
Dennis J. Kucinich, Ohio               Ranking Minority Member
Susan A. Davis, California           Peter Hoekstra, Michigan
Danny K. Davis, Illinois             Mark E. Souder, Indiana
Raul M. Grijalva, Arizona            Vernon J. Ehlers, Michigan
Donald M. Payne, New Jersey          Judy Biggert, Illinois
Rush D. Holt, New Jersey             Luis G. Fortuno, Puerto Rico
Linda T. Sanchez, California         Rob Bishop, Utah
John P. Sarbanes, Maryland           Todd Russell Platts, Pennsylvania
Joe Sestak, Pennsylvania             Ric Keller, Florida
David Loebsack, Iowa                 Joe Wilson, South Carolina
Mazie Hirono, Hawaii                 Charles W. Boustany, Jr., 
Phil Hare, Illinois                      Louisiana
Lynn C. Woolsey, California          John R. ``Randy'' Kuhl, Jr., New 
Ruben Hinojosa, Texas                    York
                                     Dean Heller, Nevada







































                            C O N T E N T S

                              ----------                              
                                                                   Page

Hearing held on April 28, 2007...................................     1

Statement of Members:
    Grijalva, Hon. Raul M., a Representative in Congress from the 
      State of Arizona...........................................     3
    Kildee, Hon. Dale E., Chairman, Subcommittee on Early 
      Childhood, Elementary and Secondary Education..............     1
        Additional submissions for the record:
            The Navajo Nation, ``Impact of the `No Child Left 
              Behind Act' (NCLB) on Bureau of Indian Education 
              (BIE) Funded Schools and Students''................    56
            Prepared statement of Delia M. Carlyle, Chairman, Ak-
              Chin Indian Community..............................    60
            Letter dated May 7, 2007, from Todd Honyaoma, Sr., 
              Vice Chairman, the Hopi Tribe......................    63

Statement of Witnesses:
    Bordeaux, Dr. Roger, director, Association of Community 
      Tribal Schools.............................................    30
        Prepared statement of....................................    31
    Gilbert, Dr. Willard S., president-elect, National Indian 
      Education Association......................................    23
        Prepared statement of....................................    25
    Miller, Tom, member, board of directors, Sault Ste. Marie 
      Tribe of Chippewa Indians..................................    19
        Prepared statement of....................................    21
    Rhodes, William R., Governor of Gila River Indian Community..     5
        Prepared statement of....................................     8
    Nosie, Wendsler, Sr., Chairman of the San Carlos Apache Tribe    10
        Prepared statement of....................................    12


       THE NO CHILD LEFT BEHIND ACT'S IMPACT ON INDIAN EDUCATION

                              ----------                              


                        Saturday, April 28, 2007

                     U.S. House of Representatives

                    Subcommittee on Early Childhood,

                   Elementary and Secondary Education

                    Committee on Education and Labor

                             Washington, DC

                              ----------                              

    The subcommittee met, pursuant to call, at 9:30 a.m., in 
Community Council Chambers, Gila River Indian Community 
Governance Center, 525 West Gu u Ki, Sacaton, Arizona, Hon. 
Dale E. Kildee [chairman of the subcommittee] presiding.
    Present: Representatives Kildee, Grijalva.
    Staff Present: Julius Lloyd Horwich, Policy Advisor.
    Chairman Kildee. A quorum being present, the hearing of the 
Subcommittee will come to order.
    I would ask Governor Rhodes to offer an invocation.
    Governor Rhodes. Let us bow our heads.
    Almighty God, Creator, we humble ourselves before you this 
morning because we are here to ask you again for blessing for 
our nation and our people.
    Lord, we just give you all the praise and glory and we 
humble ourselves. At this time we ask you to be with this 
meeting as we discuss and report the needs of our children, the 
Indian nations, but also in the surrounding towns, Lord. We are 
asking for your guidance and your blessing on the understanding 
of one nation to another nation, that there is help that is 
needed at this time.
    And thank you for bringing us together here to discuss 
these things for the betterment of our people, our communities, 
the education of the future leaders of these great nations, 
Lord. I just ask you to keep your hand on each and every one. 
Bless those that are extended families in their homes and those 
that will be traveling again, Lord, we ask for traveling 
mercies on them. We thank you for bringing everyone here safe. 
Lord, just continue to keep your hand on us and be with us as 
we discuss our needs, Lord. Be with us that we may understand 
and discuss those things to the best--for the best of our 
people.
    Lord, we give you all the praise and glory again. And we 
ask all these things through your Son Jesus, our Lord and 
Savior. Amen.
    Chairman Kildee. Thank you, Governor.
    Pursuant to Committee Rule 12(a) any member may submit an 
opening statement in writing which will be made part of the 
permanent record.
    In addition, for interested parties who are not testifying 
formally here today, you may submit written testimony for the 
record by Monday, May 7th by emailing it to Committee Counsel 
Lloyd Horwich, to my left here, who can provide you his email 
address after the hearing. That way it will be made part of the 
permanent record of this hearing.
    I now recognize myself for an opening statement.
    I am pleased to welcome the public and our witnesses to 
this hearing of the Subcommittee on Early Childhood, Elementary 
and Secondary Education, ``The Impact of the No Child Left 
Behind Act on Indian Education.''
    It is great to hear from all of you. It is especially great 
to travel from the Capitol of the sovereign United States to 
the capital of the sovereign Gila River nation. It's been ten 
years since I have been here. I have noted the great progress 
you have made in those ten years, and I commend you for that.
    Last year I promised a hearing on No Child Left Behind in 
Indian Country. And I am delighted to honor that commitment 
today. I can think of no more appropriate location for this 
hearing than on this sovereign land of the Gila River Indian 
Community in the chambers where the tribe's legislative branch 
meets.
    I want to thank Governor Rhodes, who will be our first 
witness, for making these chambers available and Congressman 
Grijalva, whose District we are in, for his campaigning for 
education for Indian children and for all children. It is my 
privilege to serve with him on this Subcommittee.
    My name is Congressman Dale Kildee from Flint, Michigan. 
And I am the Chairman of the Subcommittee. I am also the 
founder and Democratic Chairman of the House Native American 
Caucus, a bipartisan group of 108 members committed to 
protecting tribal sovereignty, increasing tribal funding and 
supporting positive legislation in Indian health care, housing 
and economic development.
    Wherever I go, I never leave home without a copy of the 
Constitution of the United States. This Constitution recognizes 
the sovereignty of the Indian Nations. It is not granted 
because it is a retained sovereignty. That has been clarified 
by the courts since the time of John Marshall. The 
Constitution, which every Member takes an oath to uphold, says 
the Congress shall have power to regulate commerce with foreign 
nations and among the several states and with the Indian 
tribes. It states those three sovereignties. We don't grant 
sovereignty by this, but we recognize sovereignty. We recognize 
your sovereignty.
    I often say that land and language are the two anchors for 
protecting tribal sovereignty. Native languages and cultures 
are among the treasures of this country's heritage, history and 
diversity. The names of many states, cities, towns, rivers and 
other geographical names in our country are derived from native 
words. That is why I was so pleased last year when the Esther 
Martinez Native American Languages Act, which helps to preserve 
and protect native languages, became law.
    I would say that a third anchor for protecting tribal 
sovereignty is education. History has presented us with unique 
challenges in providing every Indian child with the education 
he or she needs to better their life and their family's station 
in life. But in one respect the challenge faced in Indian 
country is the same challenge faced anywhere in the United 
States. Our success in the 21st century economy is directly 
tied to our ability to produce a high quality labor force. And 
that ability is, of course, directly tied to our ability to 
meet the challenge of providing every child with a world class 
education.
    Since 2002 Congress and the President have underfunded the 
No Child Left Behind Act by $56 billion. And the President's 
proposed budget for 2008 would underfund it by another 15 
billion, for a total of a $71 billion underfunding of No Child 
Left Behind.
    When I review legislation I ask myself whether it would 
advance or hinder the principles of human dignity. I am sorry 
to say that the education budgets that recent Congresses and 
the President passed did not advance those principles. Of 
course, I am hopeful that with the new Congress we will start 
to do better. But funding is only a part of reauthorizing No 
Child Left Behind. That is why we are here today.
    We have a distinguished panel of witnesses who will provide 
us with insight as to how No Child Left Behind has affected 
Indian education and how we can improve No Child Left Behind to 
improve Indian education. Because while the need for education 
may be the same everywhere, the way to educate children is not.
    Title VII of No Child Left Behind, the Indian Education 
Act, recognizes that. Its stated purpose is to support tribes 
and school districts in their efforts to meet the unique 
educational and culturally related academic needs of Indian 
students. I expect that the basic structure of No Child Left 
Behind, that is the standards, the testing, disaggregation of 
data, adequate yearly progress and the effects for not meeting 
that adequate yearly progress will remain. But I am very open 
to suggestions from our panel and others on how to improve the 
law within that structure and how to provide tribes and school 
districts with the flexibility they need to make it work better 
for all their children, and those children's parents and 
teachers.
    And I thank you for listening to me.
    I now yield to my good friend, Mr. Grijalva for his opening 
remarks.
    Mr. Grijalva. Thank you, Mr. Chairman.
    And I also join with you in thanking Governor Rhodes and 
the Gila River community for their hospitality and for the 
accommodation and kindness that they have shown us with this 
hearing. I appreciate that very much.
    And I want to welcome the witnesses to this hearing and to 
the District of which I have the pleasure of representing in 
Congress.
    You know, Native American education for too long has fallen 
by the wayside of the national agenda to reauthorize No Child 
Left Behind. The law is indeed leaving Native American students 
behind and contributing to a crisis of Indian education. With 
your help we can begin to reverse this crisis through the 
reauthorization process. And I look forward to working with you 
to that end.
    In April of 2004 President Bush acknowledged with Executive 
Order 13336 that Native American students face challenges 
unlike those of other students. That Executive Order makes 
clear that the United States Government has a responsibility to 
ensure that Native American students meet the No Child Left 
Behind Act standards in a manner consistent with Native 
American traditions and culture. Unfortunately, the facts 
demonstrate that we have not kept up our end of the bargain. 
Native American students are still scoring far behind their 
peers in overall academic performance and basic skills 
obtainment. Only 30 percent of the Bureau of Indian Education 
schools make adequately yearly progress. 83 percent of Native 
American fourth graders are not proficient in reading, 86 
percent are not proficient in math. In fact, these numbers 
reflect some of the lowest gains of any subgroup. But I believe 
there is a silver lining to this picture. Thanks in large part 
to your efforts we are beginning to make strides in improving 
Native American education for the students.
    As our Chairman indicated, the passage of the Esther 
Martinez Act last year is one of those strides. Many members of 
Congress are now aware of the need for language immersion 
instruction and culturally appropriate curriculums. For the 
first time I believe the importance of significantly changing 
the law's Native American provisions is now on the table.
    So I want to thank you for your testimony today.
    In closing, Mr. Chairman, let me just say as this country, 
this nation of ours and in the Native American community as 
well, places such a great emphasis and such a great expectation 
on the education of their children so that future leaders, 
future progress economic and social can occur to all 
communities. And this emerging need in this country needs to be 
addressed. And so through your leadership you have allowed and 
encouraged this kind of discussion that we are having today. 
And I appreciate that very much. Because as we shape this 
reauthorization, it is not about the immediate shortfall of 
money, which is important and necessary, but it is also that 
vision that we need to have for what kind of country we are 
going to have, what kind of leadership we are going to promote 
and that, indeed, no child get left behind.
    With that, Mr. Chairman, thank you. And I look forward to 
the testimony of our witnesses.
    Chairman Kildee. Thank you, Mr. Grijalva.
    Without objection, all members will have seven calendar 
days to submit additional materials or questions for the 
hearing record.
    I would like now to introduce the very distinguished panel 
of witnesses here with us this morning. Governor William Rhodes 
is the Governor of the Gila River Indian Community. He has a 
long and varied history with the Community. Prior to serving as 
Governor, he served as Lieutenant Governor, Chief Judge and 
Fire Chief.
    In all his positions, Governor Rhodes has worked to improve 
the lives of the youth of the Community.
    Chairman Wendsler Nosie, Sr. is the Chairman of the San 
Carlos Apache Tribe. Previously Chairman Nosie served the tribe 
as a council representative and the Tribal Work Experience 
Program Director. He has been honored for his accomplishments 
by the National Council of Churches and Wake Forest University.
    I have known Tom Miller for many years. Tom ably serves the 
Sault Ste. Marie Tribe of Chippewa Indians in my home State of 
Michigan. He is a member of the tribe's Board of Directors. Tom 
has also been Superintendent of the Hannahville Indian School 
for 26 years and a member of the Board of the Association of 
Community Tribal Schools for 24 years. And I appreciate you 
traveling from Michigan for this hearing.
    Dr. Willard Gilbert is President-Elect of the National 
Indian Education Association and a Professor of Education at 
Northern Arizona University. Dr. Gilbert is an expert on 
integrating Native language culture and traditions into school 
curriculum, a critical issue in Indian education.
    Dr. Roger Bordeaux is the Executive Director of the 
Association of Community Tribal Schools. He also is 
Superintendent of the Tiospa Zina Tribal School on the Sisseton 
Wahpeton Oyate reservation in South Dakota. Dr. Bordeaux has 
held those positions for 22 and 17 years respectively.
    Welcome to all our witnesses.
    For those of you who have not testified before this 
Subcommittee before, I will explain our lighting system.
    Everyone including Members is limited to five minutes of 
presentation or questioning. The green light will be 
illuminated when you begin to speak. When you see the yellow 
light it means you have one minute remaining. And when you see 
the red light, it means that your time has expired and you need 
to conclude your testimony.
    Now if you are in the middle of a paragraph or a thought, I 
am not going to turn you off. As a matter of fact, there is no 
ejection seat back there. But if you can try to begin to 
terminate your remarks.
    Please be certain as you testify to turn on and speak into 
the microphone in front of you and turn it off when you have 
finished.
    We will now hear from our first witness, Governor Rhodes.

  STATEMENT OF WILLIAM R. RHODES, GOVERNOR, GILA RIVER INDIAN 
                           COMMUNITY

    Governor Rhodes. On behalf of Gila River Community, thank 
you, Chairman Kildee, Congressman Grijalva, and other 
distinguished Members of the Subcommittee for this opportunity 
to submit testimony on the impact of the No Child Left Behind 
Act on Gila River Community.
    I am Governor William R. Rhodes of the Gila River 
Community. The Community is optimistic that the policies 
underlined in No Child Left Behind Act leave the potential to 
lead to improved academic achievement for the children across 
the country. And we support the law's reauthorization. However, 
we want our children, too, to fully benefit from the Act. And 
we believe that important changes need to be made to the Act 
for that to happen.
    This testimony focuses on the following four areas that we 
believe are in need of attention.
    First, there is a need for change in the Act to assist 
tribes with improving teacher recruitment, retention and 
training.
    Second, there is a need for enhanced tribal-state 
consultation on the requirements and goals of the Act.
    Third that the Act allow for expanding upon on the ability 
of tribes to offer native languages and culture as part of 
their curriculum without being in competition with the goals of 
the Act.
    Fourth, there is a need for supporting tribes in developing 
strategies for improved student education, including enhanced 
support for the role of parents in ensuring student attendance.
    With regard to teacher recruitment or retention, the 
Community, like many other Indian tribes across the country has 
sought to staff its educational institutions with highly 
qualified teachers as mandated by the Act. This has created 
problems that are not easily resolved. Traditionally, 
reservation schools have always had difficulty recruiting 
teachers of any kind, let alone ones that satisfy the 
definition of highly qualified. Potential teachers are not 
attracted to reservation schools because these schools are 
often isolated and rural, adding challenges of travel time and 
transportation cost for teachers.
    As a specific recommendation, the Title II teacher quality 
program could be tailored to help Indian communities improve 
their ability to attract highly qualified teachers and to 
retain the teachers we currently have. The Act should require 
States to consider the needs of these schools when distributing 
the Title II grant funds. For instance grants under Title II 
can support Indian education partnerships that improve 
preservice education for those becoming teachers of Indian 
students and can support activities that address the 
professional development needs of teachers already in our 
schools.
    Teachers need consistent training, some of which the 
Community Education Department has taken the initiative to 
provide. In 2004, the Tribe adopted as an annual event a 
reservation-wide teacher-in-service. At this event, Community 
teachers share best practices in working with Community 
students; Community leaders provide cultural insights to 
teachers; and professionals provide training in categories such 
as math teaching skills, classroom management, and teaching 
impoverished populations. Additionally, annual truancy 
prevention training is provided, as well as in-services on 
choosing and adopting common core textbooks across the 
Community.
    On our second point we also believe that states should be 
explicitly required under law to consult with tribes on the 
implementation of standards of the Act. And then tribes need to 
have a greater voice and role in the decisions made at the 
state level under the Act and required consultation between 
state education officials and Indian education officials would 
assist in advancing the goals of the Act in Indian country.
    Greater coordination with the state would also help the 
Community's government and education department who are trying 
to implement state standards in a uniform way across all of the 
Community's schools and to move toward the goal of school 
unification.
    Our education department is trying to unify the schools on 
the reservation by adopting universal policies regarding 
academic school safety, health and nutrition, student tracking 
and emergency response. Increased communication between the 
State and the Community would help all of our schools better 
understand that funding agencies support what we are trying to 
achieve and expect compliance with the policies and standards 
of the Act. And that student achievement is measured against 
the benchmarks in the Act.
    Next, native language and culture is an important part of 
our school's curriculum. The Community feels very strongly that 
these aspects of curriculum are vitally important in 
maintaining tribal culture in future generations. Strengthening 
the Act to provide a well rounded education for all children 
that builds upon our unique culture and language will further 
federal policy on several levels and ensure long-term success.
    Title III and Title VII currently allow for Native language 
instruction. However, these provisions should be strengthened 
so that schools that are successfully achieving their 
educational goals and meeting the academic standards receive 
the support they need to continue these programs.
    The Community's education department recently hired a 
Culture Coordinator who will work closely with the schools with 
strong cultural programs and other interested Community members 
to develop a standard cultural curriculum, and share that 
curriculum with our schools that do not yet have such strong 
programs. A few of the Community schools have strong cultural 
programs. Students at one of the schools are fluent in O'odham 
language and consistently study and practice the Community's 
culture. We desire that all of the Community schools become as 
proficient in teaching the Gila River Community culture and 
language, and for all students to demonstrate knowledge of the 
Community's culture and language. Given the proven link between 
teaching Native language and student achievement, we believe 
these programs long term will improve student achievement and 
strengthen our students' lifelong connection to learning.
    Finally, parenting directly effects student attendance and 
performance. The Community faces an alarming student success 
and retention situation. For instance, at Community schools, 
the statistics reveal that:
    1. High school graduation rate of the Community students is 
approximately at 58 percent; and
    2. Our high school students have a truancy rate of roughly 
56 percent.
    Community leaders have begun the process of addressing and 
remedying these situations. Last year, we conducted a Community 
Outreach Conference that aggressively and effectively promoted 
the value of education. It is too soon to tell the direct 
impact on our conference on the students' attendance and 
performance. We believe the Act should be strengthened by 
allowing increased opportunities for parents, families and 
native communities to become more involved in their children's 
schools and in the development of their educational programs.
    Thank you, distinguished Members of the Subcommittee. And 
we stand ready to answer any questions you may have or to 
supply any additional information.
    Thank you.
    [The statement of Governor Rhodes follows:]

Prepared Statement of William R. Rhodes, Governor of Gila River Indian 
                               Community

    On behalf of Gila River Indian Community, thank you, Chairman 
Kildee, Congressman Grijalva, and other distinguished Members of the 
Subcommittee for this opportunity to submit testimony to the 
Subcommittee on the impact of the No Child Left Behind Act (NCLB) on 
Gila River Indian Community (``the Community''). I am Governor William 
Rhodes of the Gila River Indian Community.
    Overall, the Community is optimistic that the policies underlying 
NCLB can lead to improved academic achievement of children across the 
country, and supports the law's reauthorization. We want our children, 
too, to benefit from NCLB and to improve their academic achievement. 
Based on our experience with the implementation of NCLB, however, the 
Community respectfully requests that the Subcommittee give careful 
consideration to ensuring that the reauthorization of NCLB provides a 
better fit for Indian children and Indian communities. As described 
further in this testimony, we want Indian tribes and Indian communities 
to be more involved in NCLB programs, and offer suggestions for ways to 
improve NCLB for Indian students for consideration by the Subcommittee.
    As stated, we support the overarching goals of NCLB. We see, 
however, many areas for improvement in the law. For instance, we view 
the Tribally Controlled Schools Act and the Indian Self-Determination 
and Education Assistance Act, which allow Indian tribes to determine 
for themselves their educational needs and build their programs around 
those needs, as models of what is working in Indian Country. As 
Congress has recognized, Indian education is not a cookie-cutter, one-
size-fits-all proposition. Instead, these two Acts give each Tribe the 
right to determine their own unique needs, and our schools are better 
off for having been permitted to exercise the self-determination and 
control that Congress provided in these statutes. We seek this same 
type of community involvement and authority in the reauthorized NCLB.
    The Subcommittee should understand that the Community does not view 
NCLB as being in tension with this local control principle. Rather, we 
ask the Subcommittee to recognize that for the NCLB to be fully 
successful in Indian country, the law must take into account the unique 
challenges it presents for Indian students and tribal educators.
    This testimony focuses on the following four areas that we believe 
are in need of attention in the discussion of the reauthorization of 
the NCLB and what it means for Indian Country, based on the experience 
we have had at the Community: (1) the need for improved teacher 
recruitment and retention, (2) the need for enhanced tribal--state 
consultation, (3) the importance of allowing for native languages and 
culture as part of the curriculum, and (4) the need for strategies for 
improved student retention, including the role of parents in ensuring 
student attendance.
I. Teacher recruitment and retention.
    The Community, like many other Indian tribes across the country, 
has sought to staff its educational institutions with ``highly 
qualified teachers'' as mandated by NCLB. This has created problems 
that are not easily resolved. Traditionally, reservation schools have 
always had difficulty recruiting teachers of any kind, let alone ones 
that satisfy the definition of highly qualified. While the pay scale at 
the schools in our Community is competitive with many other area 
schools, this is not the solution to the problem. Potential teachers 
are not attracted to reservation schools because these schools are 
often isolated and rural, adding challenges of travel time and 
transportation cost for teachers.
    Moreover, once teachers are recruited, the problem does not end 
there. The Community has experienced a significant problem with teacher 
retention. Quite frankly, some teachers, especially new teachers, tend 
to be hired because their lack of experience keeps them from finding 
work in more desirable locations. It isn't unusual for these teachers 
to gain some experience at our schools and then leave the school. As a 
result, the Community is in a constant state of searching for eligible 
teachers, knowing that, once recruited, they will almost certainly 
leave within a few short years.
    As an illustrative example, Vah-Ki Middle School on reservation has 
great difficulty finding highly qualified teachers and must use 
``emergency certified'' teachers. Emergency certification is only good 
for one year, and if that teacher proves effective in working with the 
students, but has not acquired 6 required semester hours of coursework, 
they cannot be recertified. The school now only has 6 highly qualified 
teachers, and 8 who are emergency certified or have a substitute 
teacher license. During the 2005-06 school year, this school had to 
delay opening day by a week because there were not enough teachers 
hired. The opening of school was chaotic, with most classes being 
taught by substitutes.
    We think the Title II teacher quality programs can be tailored to 
help Indian communities improve their ability to attract highly 
qualified teachers and to retain the teachers we currently have. 
Congress should place a priority on supporting activities that address 
the needs of teachers and schools serving Indian students. NCLB should 
require States to consider the needs of these schools when distributing 
Title II grant funds. For instance, grants under Title II can support 
higher education partnerships that improve preservice education for 
those becoming teachers of Indian students and can support activities 
that address the professional development needs of teachers already in 
our schools. Providing these services helps us address the professional 
needs of our teachers so that they experience success in our classrooms 
and feel commitment to our students and communities.
    Teachers need consistent training, some of which the Community's 
Education Department provides. In 2004, the Tribe adopted as an annual 
event a reservation-wide teacher in-service. At this event, Community 
teachers share best practices in working with Community students; 
Community leaders provide cultural insights to teachers; and 
professionals provide training in categories such as math teaching 
skills, classroom management, and teaching impoverished populations. 
Additionally, annual truancy prevention training is provided, as well 
as in-services on choosing and adopting common core textbooks across 
the Community.
II. States should be explicitly required under law to consult with 
        tribes on NCLB.
    We want NCLB to work for our students and we can provide useful 
suggestions on how to successfully implement the law within the unique 
nature of our Indian communities. Indian tribes need to have a greater 
voice and role in the decisions made at the State level under NCLB. 
State education officials should be required to consult with Indian 
educational representatives in the development of state accountability 
systems. They should also consider the needs of Indian parents when 
developing parent involvement programs.
    The Community is trying to implement state standards and, toward 
that end, would benefit from increased coordination with the State and 
among the Community's schools. The Community continues to work closely 
with our school administrators and teachers to move toward the goal of 
``school unification.'' Such unification includes adopting universal 
policies regarding academics, school safety, health and nutrition, 
student tracking, and emergency response. Increased communication 
between the state and the Community would help all of our schools 
better understand that funding agencies fully support what we are 
trying to achieve and expect compliance with the policies and standards 
of NCLB. The Community does not demand anything from its schools that 
they should not be doing anyway, and simply wants to ensure that 
continuity and structure for our students. Greater coordination between 
the State, the tribe and our schools would go a long way toward 
advancing this effort.
    There should be stronger emphasis in encouraging states, tribal 
governments and communities to work together in developing appropriate 
educational standards and related assessments. Specifically, NCLB 
should be amended to require that states involve tribes located within 
their boundaries in the development of state assessments. To facilitate 
enhanced cooperation, NCLB can be strengthened to provide resources for 
collaboration among tribes, states, and the Federal Government to allow 
for increased opportunities in the development of standards that 
recognize the cultural backgrounds of native students.
III. Native language and culture as part of the curriculum.
    The Community's schools incorporate native language and culture 
into the curriculum. The Community feels very strongly that these 
aspects of the curriculum are vitally important to maintaining tribal 
culture for future generations. While current NCLB requirements often 
make it difficult to meet our native language and culture education 
goals, the Community wants to continue these types of programs and at 
the same time we work to increase the academic achievement of our 
students.
    Title VII of NCLB recognizes that native children have unique 
educational needs due to their cultures and backgrounds. Native 
children should be given every opportunity to obtain a comprehensive 
education that allows them to succeed and contribute in building 
healthy communities. Native learning is strengthened through 
instruction that integrates basic skills with traditional cultural 
practices and embraces the knowledge of the environment, native fine 
arts and crafts, leadership, character and citizenship. Strengthening 
the NCLB to provide a well-rounded education for all children that 
builds upon our unique culture and language will further federal policy 
on several levels and ensure long-term success.
    Title III and Title VII currently allow for Native language 
instruction. However, these provisions should be strengthened so that 
schools that are successfully achieving their educational goals and 
meeting the academic standards receive the support they need to 
continue these programs. Research shows that native children perform 
better academically when they are taught in a manner that is consistent 
with their traditions, languages and cultures. See, for example, Pease-
Pretty On Top, Janine, Native Language Immersion: Innovative Education 
for Children and Families. Denver: American Indian College Fund, 2000.
    The GRIC Education Department has recently hired a Culture 
Coordinator who will work closely with the schools with strong culture 
programs and other interested Community members to develop a standard 
culture curriculum, and share that curriculum with our schools that do 
not yet have such strong programs. For example, a few of the Community 
schools have strong culture programs-students at one of these schools 
are fluent in O'odham language and consistently study and practice the 
Community's culture. It is desired that all of the Community schools 
become as proficient in teaching the Gila River Indian Community 
culture and language, and for all students to demonstrate knowledge of 
the Community's culture and language. One challenge is that the 
Community is comprised of two tribes: Pima and Maricopa. The Culture 
Coordinator will ensure that both cultures and languages are 
incorporated in the culture curriculum. Given the proven link between 
teaching Native languages and student achievement, we believe these 
programs, long term, will improve student achievement and strengthen 
our student's lifelong connection to learning.
IV. Parenting initiatives and impacts on student attendance and 
        performance.
    The Community faces an alarming student success and retention 
situation. For instance, at Community schools, the statistics reveal 
that:
    1. High school graduation rate of Community students is 
approximately at 58%; and
    2. High school students have a truancy rate at roughly 56%.
    The Community leaders have begun the process of addressing and 
remedying these issues. Last year, we conducted a Community Outreach 
Conference that aggressively and effectively promoted the value of 
education. Sessions were selected and designed to provide information 
to Community members as family units, and included in those sessions 
were workshops from the GRIC school administrators to educate parents 
on how their efforts are necessary and complement the effort of 
educators in keeping our students in school and on track toward high 
school graduation. It is too soon to tell the direct impact of our 
conference on student attendance and performance. However, given the 
truancy and drop-out rates at the Community, this event has been 
endorsed by tribal leaders as an annual occurrence in order to address 
this significant problem.
    While there are a number of things the Community's government can 
do to address this problem, such as putting pressure on schools to take 
stronger steps to ensure attendance and strengthening enforcement of 
the Community Children's Courts' revised truancy ordinance, we believe 
NCLB can be strengthened by allowing increased opportunities for 
parents, families, and native communities to become more involved in 
their children's schools and in the development of their educational 
programs. Schools are successful when parents, families, tribes and the 
local communities are actively involved and engaged in the school's 
programs and activities.
    Thank you, distinguished Members of the Subcommittee, and we stand 
ready to answer any questions you may have or to supply any additional 
information.
                                 ______
                                 
    Chairman Kildee. Thank you very much, Governor.
    Chairman Nosie?

STATEMENT OF WENDSLER NOSIE, SR., CHAIRMAN OF SAN CARLOS APACHE 
                             TRIBE

    Chairman Nosie. Habi'd godiliz', good morning, Chairman 
Kildee and Congressman Grijalva. I'm Wendsler Nosie, Chairman 
of the San Carlos Apache Tribe. I'm joined with Councilman 
Jonathan Kitcheyan and Ulman Clark, and Catherine Steele, the 
Curriculum/NCLB Director with the San Carlos Unified School 
District.
    Thank you for holding this important hearing. We appreciate 
the dedication to the serious issue you show by the fact that 
you are here to seek our views. Our goal is to ensure that our 
children's unique education needs are met and that they have 
the opportunities to become successful and contributing members 
of society.
    Our reservation is about 128 million acres and is located 
in a rural and isolated area. We have low infrastructure and 
many needs. We have over 13,000 tribal members, 30 percent of 
them under the age of 18. While we have worked hard to develop 
our economy, we have 76 percent unemployment rate and poverty 
level of 77 percent.
    Our children struggle under staggering poverty and this 
poverty leaves no part of life untouched.
    Mr. Chairman, as a school teacher you know that our 
children cannot do well in school if they have poor housing, 
nutrition and medical care. The situation only seems to get 
worse. Unfortunately, the Federal Government continuously fails 
to fund or underfunds key programs in Title VII as well as 
basic programs for the poor, such as housing improvement 
programs, welfare assistance and Johnson O'Malley. I know that 
these programs are not part of the NCLB, but they are all 
interrelated because all of these programs impact our children. 
Many students in poverty do not have the experience needed to 
enable them to successfully learn when they reach kindergarten 
or the early grades. This situation results in poor test 
scores. This problem creates a domino effect that widens the 
achievement gap even more when these students reach upper 
grades.
    There are two public school districts that the children 
from the reservation attend. The Fort Thomas Unified School 
District and the San Carlos Unified School District.
    The Fort Thomas Unified School District is comprised of two 
schools, the Fort Thomas Elementary and the Fort Thomas High 
School. The elementary school had 249 students registered this 
year and the high school had 293 students. Based on this year's 
Arizona School Report Card the elementary school failed to meet 
the AYP for the past three academic years. However, it did last 
year and currently is in Title 1 School Improvement Year 2 
status.
    The high school did not meet AYP in the past academic year 
despite meeting it for the two years prior. Subsequently, it is 
in Title 1 warning year status.
    The San Carlos Unified School District is comprised of four 
schools. Rice Primary School, the San Carlos Intermediate and 
the San Carlos Junior High and the San Carlos High School.
    Rice Primary School has 334 students, the intermediate 
school has 285 students, the junior high has 314 students and 
the high school has 324 students. Based on this year's Arizona 
School Report Card three of these schools did not meet AYP. The 
high school has not met AYP in six years and is currently in 
Title I restructuring implementation phase. The intermediate 
school is in Title I corrective action status. Rice Primary did 
not meet AYP for the past two years and is in Title 1 warning 
year status. The junior high met AYP for '05 and '06, but did 
not in '06 and '07 and is in Title 1 school improvement year 4 
restructuring.
    In other words, only one school out of the six on the 
reservation, Fort Thomas Elementary, met the AYP for '06 and 
'07. Half of the schools failed to make AYP for two consecutive 
years. One of the schools, San Carlos High School, has never 
made AYP since NCLB.
    We face a dire situation over our children's educational 
needs. Testing scores demonstrate the incredible disparity 
between our children and other children within the State. Given 
the severe poverty levels on the reservations it is difficult 
if not impossible to meet all the requirements imposed on our 
schools by the NCLB. We urge Congress to provide full funding 
for the mandates imposed by NCLB because of the isolation on 
the reservation and highly qualified teachers are difficult to 
recruit and retain. NCLB needs to be amended to allow school 
districts to train emerging endorsed teachers beyond one school 
year. The school district reported that non-Native teachers 
lack proper training to effectively break the barriers of 
cultural differences. We urge the Congress to provide full 
funding for professional development and service training and 
any career ladder programs. Our teachers have not been given 
the proper resources to help our children learn. This needs to 
change if our schools are to meet the NCLB goals for 2014.
    We have a lot of work to do to achieve these goals in NCLB, 
but we cannot do it without your support. Our children have 
been left behind for a long time, and hope that we can work 
together to ensure that the reauthorization brings positive 
change.
    Thank you.
    [Statement of Chairman Nosie follows:]

 Prepared Statement of Wendsler Nosie, Sr., Chairman of the San Carlos 
                              Apache Tribe

    Good morning, Chairman Dale Kildee and Congressman Raul Grijalva. I 
am Wendsler Nosie, Sr., Chairman of the San Carlos Apache Tribe based 
in San Carlos, Arizona. I am honored to be here to testify today before 
this Committee to provide the views of the San Carlos Apache Tribe on 
the impacts of the No Child Left Behind Act (NCLB) on our students on 
the San Carlos Apache Indian Reservation and our tribal members who are 
students in the surrounding communities. I am joined by Tribal Council 
Member Jonathan Kitcheyan, who is also on the Tribal Council's 
Education Committee, and Catherine Steele, Curriculum/NCLB Director 
with the San Carlos Unified School District.
    Before I begin, I would like to take this moment to thank you for 
holding this important hearing on the educational needs of Indian 
students in Indian Country. We appreciate the dedication to this 
serious issue you show by the fact that you are here--far away from 
Washington, D.C.--to seek our views, to see our lands, and to meet our 
people. In particular, I want to thank Chairman Kildee for his decades 
of tireless and passionate advocacy on behalf of Indian Country. His 
efforts on behalf of Indian tribes are well known and we appreciate the 
priority he has made in addressing our students' unique educational 
needs. Also, we are very thankful that we have Representative Grijalva 
representing our great state of Arizona and that he works on these 
important issues on our behalf.
    Our goal is to ensure that our children's unique educational needs 
are met and that they have opportunities to become successful and 
contributing members of society. We believe that this can be 
accomplished if the federal government fulfills its trust 
responsibility to Indian people. Title VII of NCLB states:
    It is the policy of the United States to fulfill the Federal 
Government's unique and continuing trust relationship with and 
responsibility to the Indian people for the education of Indian 
children. The Federal Government will continue to work with local 
education agencies, Indian tribes and organizations, postsecondary 
institutions, and other entities toward the goal of ensuring that 
programs that serve Indian children are of the highest quality and 
provide for not only the basic elementary and secondary educational 
needs, but also the unique educational and culturally related academic 
needs of these children.\1\
    This is a powerful statement, and we urge the Committee, as it 
moves forward with the reauthorization of NCLB, to put teeth behind 
these words. It seems that, even though this statement of policy is 
contained in NCLB, folks in Washington and in the state treat it as if 
it is compartmentalized to Title VII and not applicable to the other 
titles in NCLB. Instead, we believe that this statement of policy 
should guide the educational programs for Indian children in all the 
titles of NCLB. In fact, research shows that Native children who 
participate in Native language and culture programs perform better 
academically than their peers who do not participate in such programs.
    As you know, our Indian children struggle due to the staggering 
poverty and unemployment on the Reservation. This poverty leaves no 
part of life untouched. Mr. Kildee, as a school teacher, you know that 
our children cannot do well in school if they have no home, 
insufficient food, few supplies, inadequate transportation, poor 
medical care, unsafe communities, or broken families. The situation 
only seems to get worse. Unfortunately, the Administration and the 
Congress have continually failed to fund or underfund key programs in 
Title VII for Indian people. Further, the Administration continues to 
propose eliminations or cuts in basic programs at the BIA for the 
poorest of the poor, such as the Housing Improvement Program, the 
Tribal Work Experience Program, Burial Assistance, Welfare Assistance, 
and Johnson O' Malley. Correspondingly, the Congress either restores 
only the bare minimum or implements the Administration's 
recommendations. I know that these programs are not part of NCLB but 
they are all inter-related because all these programs impact the 
ability of our children to perform in school.
    As you can see, at San Carlos, the federal government has fallen 
short in its obligations. We are hopeful though that with your help 
that we can improve the educational opportunities for our children 
through the reauthorization of NCLB and through increased funding for 
NCLB and for other programs critical to the well-being of Indian 
people.
The San Carlos Apache Indian Reservation
    To better understand the educational needs of our students and 
other needs of our people that impact our educational needs, it is 
helpful to know about the Reservation itself as well as the history of 
the Apache people. The aboriginal territory of the Apache Nation 
included the western part of Texas, the current states of Arizona and 
New Mexico, and the country of Mexico. The Apache Treaty of Santa Fe in 
1852 was executed by Mangus Colorado and others on behalf of the 
Apaches. Pursuant to the Treaty, lands within the aboriginal 
territories of the Apache Nation were to be set aside for a permanent 
Tribal homeland and the United States promised to provide for the 
``humane'' needs of the Apache people. In exchange, the Apache Nation 
agreed to the end of hostilities between the two nations.
    The San Carlos Apache Indian Reservation was established by an 
executive order of President Grant on November 9, 1871. Through the 
concentration policies of the United States, various bands of Apaches 
were forcibly removed to the San Carlos Apache Indian Reservation. 
These bands included the Coyoteros, Mimbrenos, Mongollon, Aravaipa, 
Yavapai, San Carlos, Chiricahua, Warm Springs, and Tonto Apaches. 
Famous Apache leaders who were located at San Carlos included Geronimo, 
Cochise, Loco, Eskiminzin, Nachie, Chatto, and others. Throughout 
history, the United States in 1873, 1874, 1876, 1877, 1893, and 1902 
diminished the size of the Reservation several times by executive order 
due to the discovery of silver, copper, coal, water, and other minerals 
and natural resources.
    The San Carlos Apache Reservation has a land base of 1.8 million 
acres, but only a small percentage of the Reservation can be used for 
residential building purposes. The remainder of the Reservation is 
comprised of some of the most rugged terrain in the Southwest, 
including deep stands of timber, jagged outcroppings, and rocky 
canyons. As a result, the Reservation lacks infrastructure in all but 
two general housing areas. On the western edge of the Reservation, the 
Tribe has 3 districts: 7-Mile Wash, Gilson Wash, and Peridot. Located 
on the eastern edge of the Reservation is the District of Bylas.
    The Reservation now, at its current size, spans three Arizona 
counties: Gila, Graham, and Pinal. The total population is 13,299 
members, which is based upon figures compiled by the Tribe's Enrollment 
Office. 30% of the population is under the age of 18 years; 60% are 
between the ages of 18-54; 4% are between the ages of 55-61; and 6% are 
62 years of age or over.
    Although some tribal members have moved away due to economic 
depression on the Reservation and other reasons, a high majority of our 
members, 84%, live on the Reservation. While we have worked hard to 
develop our Reservation economy, 76% of our Reservation population is 
unemployed compared to the national unemployment rate of 4.4% and the 
state of Arizona rate of 3.9%. We suffer from a poverty level of 77%.
Public Schools that San Carlos Apache Students Attend
    There are two public school districts that children from the San 
Carlos Apache Reservation attend, the Ft. Thomas Unified School 
District and the San Carlos Unified School District. Both school 
districts' governing board members consist of many members of the San 
Carlos Apache Tribe, including the Vice Chair for the Tribe and a 
Tribal Council Member. The governing board president for the San Carlos 
Unified School District has been actively engaged in bringing the 
tribal community to the schools through his role as the health 
educator.
    The Arizona Department of Education supplies yearly academic report 
cards for all school districts within the state. The most current 
report card is for school year 2006-2007. AYP measurements are 
determined using four objectives: number of students tested, meeting 
test objectives, graduation rate, and attendance rate. During the first 
100 days of the school year for 2006-07, the attendance rate for 
students in both school districts was over 90%. However, as you will 
see below, the academic achievement rates for these schools, as 
measured under the current law, do not positively correlate to the high 
attendance rates. Most of our schools are not making AYP because they 
have failed to meet at least one of the four objectives. For example, 
in the 2006-07 academic year, San Carlos High School did not make AYP 
because of the low percentage of students tested. In FY 2006, San 
Carlos Intermediate and San Carlos Junior High School did not make AYP 
because of the low percentage of students tested. Also, San Carlos High 
School failed to make AYP in FY 2006 because it did not meet the 
graduation requirements due to the drop out rate at the school. Another 
large determinant on the ability of our students to academically 
perform in school is the high poverty level on the Reservation. For 
example, almost all of our students take buses to school and live far 
distances from their schools.
The Ft. Thomas Unified School District
    The Fort Thomas Unified School District is comprised of two 
schools:
    (1) Fort Thomas Elementary School (FTES); and
    (2) Fort Thomas High School (FTHS).
    The elementary school had 249 students registered in the 2006-07 
school year and the high school had 293 students. 95% of the students 
enrolled in the Ft. Thomas Unified School District are members of the 
San Carlos Apache Tribe. The Ft. Thomas Unified School District is 
located on the east side of the Reservation and serves the Bylas 
community.
    Based upon the Arizona School Report Card Academic Year 2006-07, 
the FTES failed to meet AYP for the past three academic years. However, 
it did last year and currently is in Title 1 School Improvement Year 2 
status (SI Year 2).\2\ The FTHS did not meet AYP the past academic year 
despite meeting it for the two years prior and subsequently is in Title 
I warning year status.
    The Ft. Thomas Unified School District believes that the AYP 
definition needs to be more user friendly because they are making 
progress in our schools but the inflexible AYP labels do not reflect 
the progress. Rather, the definition of AYP should include additional 
measurements of success, especially measurements that gauge the 
progression of individual student growth over time not only in math, 
reading, and writing but also in other areas.
    Based upon the Arizona School Report Card Academic Year 2006-07, 
Ft. Thomas Unified School District students received AIMS testing in 
mathematics, reading, and writing. In the area of mathematics testing, 
of the 33 third grade FTES students tested, only 21% met the standard 
compared to statewide results showing that 53% met the standard and 18% 
exceeded. Of the 42 fifth grade FTES students tested in math, only 14% 
met the standard compared to statewide results showing that 49% met the 
standard and 19% exceeded the standard. Math testing for FTHS eighth 
graders showed, of the 52 students tested, 10% met the standard 
compared to statewide results showing 47% met the standard and 12% 
exceeded the standard. Math testing for FTHS tenth graders showed that, 
of the 33 students tested, 39% met the standard compared to statewide 
results showing that 51% met the standard and 14% exceeded the 
standard.\3\
    In the area of reading testing, of the 33 third grade FTES students 
tested, only 15% met the standard compared to statewide results showing 
that 56% met the standard and 11% exceeded the standard. Of the 42 
fifth grade FTES students tested in reading, only 26% met the reading 
standard compared to statewide results showing that 58% met the 
standard and 9% exceeded the standard. Of the 52 FTHS eighth graders 
tested in reading, 12% met the standard compared to the statewide 
results showing that 58% met the standard and 5% exceeded the standard. 
For 34 FTHS tenth graders tested in reading, 44% met the standard 
compared to statewide results showing 64% met the standard and 8% 
exceeded.
The San Carlos Unified School District
    The San Carlos Unified District is comprised of four schools:
    (1) Rice Primary School (RPS) (grades K-2);
    (2) San Carlos Intermediate (SCI) (grades 3-5);
    (3) San Carlos Junior High School (SCJHS) (grades 6-8) and
    (4) San Carlos High School (SCH) (grades 9-12).
    Rice Primary School has 334 students (no AIMS testing takes place 
before second grade). SCI has 285 students. SCJHS has 314 students. SCH 
has 324 students. 99% of the 1,257 district students are members of the 
San Carlos Apache Tribe or members of other recognized tribes.
    Based upon the Arizona School Report Card Academic Year 2006-07, of 
the four schools within the district, three did not meet AYP for 
academic year 2006-07. SCH has not met AYP in six years and is 
currently in Title I Restructuring (Implementation Phase); \4\ SCI is 
in Title I Corrective Action status; \5\ and RPS did not meet AYP for 
the past two years and is in Title I warning year status. SCJHS met AYP 
for academic year 2005-06 but did not meet AYP in 2006-07 and is in 
Title I School Improvement Year 4 or Restructuring (Planning Phase).\6\
    Also, based upon the Arizona School Report Card for academic year 
2006-07, San Carlos Unified School District students received AIMS 
testing in mathematics, reading, and writing. Mathematics testing for 
the three schools that tested this area included the following results: 
for SCI, of the 85 third grade students tested, 19% met the standard 
compared to statewide results showing 53% meeting the standard and 18% 
exceeding. For SCJHS, of the 92 eighth grade students tested, 18% met 
the standard compared to statewide results showing 47% meeting the 
standard and 12% exceeding. For SCH, of the 79 tenth grade students 
tested, 9% met the standard compared to statewide results showing 51% 
meeting the standard and 14% exceeding.\7\
    Reading testing results for SCI show, of the 73 third graders 
tested, 23% met the standard compared to statewide results showing 56% 
meeting the standard and 11% exceeding. For SCJHS, of the 91 eighth 
grade students tested, 23% met the standard compared to statewide 
results showing 58% meeting the standard and 5% exceeding. For SCH, of 
the 86 tenth graders tested, 27% met the standard compared to statewide 
results showing 64% meeting the standard and 8% exceeding.
    The chart below depicts the rating or status of the public schools 
for this school year based on the results of Arizona's Instrument to 
Measure Standards Dual Purpose Assessment (AIMS DPA) in grades 3-8, 
High School AIMS, and the TerraNova standardized testing in grades 2 
and 9.

  SAN CARLOS UNIFIED SCHOOL DISTRICT 2006-2007 AZLEARNS AND NCLB STATUS
------------------------------------------------------------------------
             School                 Arizona Learns           NCLB
------------------------------------------------------------------------
Rice Primary...................  Failing              Warning
Intermediate School............  Underperforming      Corrective Action
SC Junior High School..........  Underperforming      Restructuring-
                                                       Planning
SC High School.................  Performing           Restructuring-
                                                       Implement
------------------------------------------------------------------------

    The following is data reported under NCLB for the San Carlos 
Unified School District. The school district is struggling with the 
Corrective Action label it has received for this school year 2006-2007.

         San Carlos Unified School District 2006-2007 NCLB Data

                       District AYP Determination

Met Percent Tested?...............................................    No
Met Test Objectives Reading or Math?..............................    No
Met 90% Attendance Rate?..........................................   Yes
Met Graduation Rate?..............................................    No
Made AYP?.........................................................    No

    Below is additional information provided by the San Carlos Unified 
School District:
--------------------------------------------------------------------------------------------------------------------------------------------------------
                                                            My District              My District                         Arizona Schools
                        Grade                        ---------------------------------------------------------------------------------------------------
                                                        % Proficient in Math   % Proficient in Reading    % Proficient in Math   % Proficient in Reading
--------------------------------------------------------------------------------------------------------------------------------------------------------
3...................................................                      19                       23                       53                       11
4...................................................                      45                       19                       45                       19
5...................................................                      25                       32                       49                       58
6...................................................                      12                       14                       46                       60
7...................................................                      24                       31                       52                       58
8...................................................                      18                       23                       47                       58
10..................................................                       9                       27                       51                       64
--------------------------------------------------------------------------------------------------------------------------------------------------------

    It is overwhelmingly apparent that the children of San Carlos face 
a dire situation with regard to their educational needs. Testing scores 
demonstrate the incredible disparity between Apache children on the 
Reservation and other children within the state. Attendance records 
show that these children are in school and exposed to educational 
instruction and learning activities, so there is the possibility to 
improve given the right tools.
    To summarize, only 1 school out of 6 on the Reservation--Ft. Thomas 
Elementary School--made AYP for the academic year 2006-07. Half the 
schools on the Reservation have failed to make AYP for 2 consecutive 
years. One of the schools--San Carlos High School--has never made AYP 
since the enactment of NCLB. Further, when comparing test scores of 
Apache students to other students state-wide, Apache students are 
scoring at far lower proficiency levels.
Impact of Poverty on the Educational Needs of Students at San Carlos
    As mentioned above, the poverty level on the San Carlos Apache 
Reservation is 77% and the communities on the Reservation are rural and 
isolated. This creates many basic needs for our students because of the 
lack of housing, overcrowded housing, poor nutrition, lack of school 
supplies, lack of opportunities, and public safety risks due to violent 
crime, domestic abuse, drug use, and gang violence.
    For example, in 2004, 64 babies out of 256 were born to San Carlos 
Apache tribal members addicted to meth, and 24-25% of pregnant women at 
San Carlos tested positive for meth. In 2005, the number of babies born 
addicted to meth was even higher. About 50% of all newborns at San 
Carlos test positive for alcohol or drugs. Babies born to mothers on 
meth can be born meth-addicted themselves and suffer birth defects, low 
birth weight, tremors, excessive crying, attention deficit disorder, 
and behavior disorders. Also, they often have intestinal, cognitive, 
and heart problems.
    Further, in 2004, there were 101 suicide attempts on the 
Reservation. The age range was 15 to 54 years old with 50 individuals 
being females and 51 being males. Of the suicide attempts in 2004, 25 
of the individuals were 18 years of age or under, 13 were between the 
ages of 19 and 21, and 17 were between the ages of 22 and 25. Of the 
101 suicide attempts, two resulted in death.
    Naturally, these types of conditions psychologically, mentally, and 
physically impact our children, including their ability to perform 
academically. These situations also affect their outlook on life, their 
motivation, and ability to have hope for the future. Many students 
living in poverty do not have the experiences needed to enable them to 
be successful in learning when they reach kindergarten and the early 
grades. This situation results in poor test scores. This problem 
creates a domino effect that widens the achievement gap even more when 
these students reach the upper grades (4-12).
    As an economically disadvantaged community, we rely heavily on 
Title I dollars. For example, the San Carlos Unified School District 
was awarded a total amount of $1,215,150.00 with a carryover of 
$104,447.71 for the school year 2006-2007. Each year, its Title I grant 
has been reduced by nearly 10% from the prior year's funding. The 
following is a chart that shows the number of students at each school 
in the San Carlos Unified School District, the poverty rating for each 
school based on the results of the Free and Reduced School Lunch 
program applications, and the amount that each school received.

                       SAN CARLOS UNIFIED SCHOOL DISTRICT 2006-2007 TITLE I PROGRAM FUNDS
----------------------------------------------------------------------------------------------------------------
                       School                           No. of Students      Poverty Rate        Funded Amount
----------------------------------------------------------------------------------------------------------------
Intermediate School.................................                 285              95.94%         $132,532.00
Junior High School..................................                 314              93.73%         $137,120.00
High School.........................................                 324              90.14%         $167,691.00
Rice Primary........................................                 334              85.29%         $162,594.00
*St. Charles........................................                 128              93.75%          $61,163.00
*Peridot Lutheran\8\................................                  91              90.11%          $41,795.00
----------------------------------------------------------------------------------------------------------------

    The schools on the Reservation do receive funding for educational 
purposes in addition to Title I. For example, the San Carlos Unified 
School District receives the following funds for our students and their 
unique educational needs:

Title VII...............................................     $229,392.00
JOM.....................................................      $80,000.00
Title VIII (Impact Aid for 2005-2006)...................   $7,001,315.00
Title III...............................................           $0.00
Title II................................................     $151,307.00

    The Ft. Thomas Unified School District received a total of 
$3,715,939.47 for FY 2005-06 and the funding consisted of the 
following:

Title I LEA.............................................     $901,525.00
Title IIA Improving Teacher Quality.....................     $121,988.15
Title IV Safe and Drug Free Basic.......................      $29,208.32
Title VII...............................................      $79,642.00
Title VIII Impact Aid...................................   $3,715,939.47

    Given the severe poverty levels on our Reservation, it is 
difficult, if not impossible, to meet the myriad of requirements 
imposed upon our schools by NCLB. We urge the Congress to provide full 
funding for the mandates imposed under NCLB.
    Also, IDEA and other special education laws need to be fully 
funded. For numerous reasons, Indian Country schools, including the 
schools on our Reservation, have a much larger percentage of special 
education students. Additionally, these students should not be counted 
in with regular education testing data, and those requiring 
accommodations on testing should be allowed them without penalization.
Recruitment, Retention and Training of Teachers
    San Carlos is located approximately 110 miles from Phoenix over the 
mountains. The nearest towns are Globe and Safford and they are about 
30 minutes away from the nearest tribal communities. Because of the 
isolation on the Reservation and lack of housing, Highly Qualified (HQ) 
teachers are difficult to recruit and difficult to retain. For example, 
last year the third grade class at San Carlos Intermediate School was 
taught by three teachers that were emergency certified. Two of these 
teachers were not renewed for the next school year due to their status 
as not being HQ. Below is additional information on the HQ teacher 
challenges at this particular school.

        SAN CARLOS INTERMEDIATE SCHOOL HIGHLY QUALIFIED TEACHERS
------------------------------------------------------------------------
        Teachers             Highly Qualified      Not Highly Qualified
------------------------------------------------------------------------
Third                    4                        2
Fourth                   5                        1
Fifth                    3                        3
Total                    12 = 67%                 6 = 33%
------------------------------------------------------------------------

    For the Ft. Thomas High School, 14% of teachers in the school have 
Emergency/Provisional Certification and 7% of core classes are not 
taught by Highly Qualified Teachers. NCLB needs to be amended to allow 
the school districts to train emergency endorsed teachers beyond one 
school year.
    The school districts report that non-Native teachers lack proper 
training to effectively break the barriers of cultural differences. 
Also, it appears that teachers who do not understand the unique needs 
of their students do not take ownership of their class and, instead, 
view themselves as visitors.
    We urge the Congress to provide full funding for professional 
development, in-service training, and Indian career ladder programs. 
For example, under Title VII, Part A, Subparts 2 and 3, there are some 
terrific Indian professional development programs and in-service 
training programs for teachers of Indian children; however, these 
programs have never been funded. If our Indian children are to succeed, 
then their teachers need to have the proper tools to help their 
students succeed. For far too long, our teachers have not been given 
the proper resources to help our children learn. This needs to change 
if our schools are to meet NCLB's goals by 2014.
    We also urge the Congress to create additional programs to recruit 
Indian teachers and to train non-Native teachers in the unique needs of 
Indian students, such as in Title II of NCLB and in the TEACH Act. One 
way to help us make our salaries competitive with other schools for HQ 
teachers is to allow us to use impact aid dollars for salaries and 
benefits beyond the revenue control limit. 49% of our school funding is 
derived from impact aid.
    Also, given that we are located in an isolated area, we will always 
have a teacher shortage without available housing options. This creates 
a challenge for us when competing against other schools on recruitment 
and retention of HQ teachers. We request assistance in addressing this 
problem.
Importance of Language and Culture in the Classrooms
    Our Tribe is committed to ensuring that our children receive a 
culturally based education. Through this type of education, they become 
more engaged in school, can more readily identify with the curriculum, 
and are more likely to stay in school. In the San Carlos Unified School 
District, all four of its schools offer a language and culture class at 
each site. The high school has an additional class that teaches the 
culture and history of the Apaches. The school district employs five 
Native teachers to operate these classes. Currently, the Ft. Thomas 
Unified School District does not offer language and culturally based 
curriculum because of the lack of certified teachers in this area. 
However, Ft. Thomas does offer cultural instruction through an after-
school program (21st Century). This program has been successful in 
building self-esteem and self-confidence in the students and increasing 
their interest in learning beyond the regular school day.
Parental Support Issues
    According to the San Carlos Unified School District, parents, 
generally speaking, take a hands-off approach and do not get actively 
involved in school activities. Perhaps it is because of the history of 
the Apaches where they were forced to attend boarding schools and their 
parents had no voice in their education. Schools invite parents today 
but still continue to have only a small number come in to discuss their 
children's progress. It is estimated that only 40% of parents come to 
the schools. There may be other factors to account for this, such as 
lack of transportation, overextended work schedules, and social ills.
    The Ft. Thomas Unified School District reported that parental 
involvement is not where it should be but they are making it a 
priority. Also, Ft. Thomas has begun to include the tribal government 
in its education process and activities.
Curriculum Development
    The schools have choices when it comes to textbook adoptions 
although it is actually the teachers who do the selection by voting at 
least by 70%. Once the choice is made the series being recommended is 
placed on public display for parents to review. The schools ensure that 
the textbooks are aligned to the state standards.
    Arizona Intervention and Solutions teams have conducted site visits 
as part of their interventions and their common finding is that the 
teachers in the schools are not teaching to state standards. Also, they 
found that there was a lack of student engagement. This past year 
another finding was that the professional development activities at 
Rice Primary School and San Carlos Junior High School are not aligned 
to the Arizona School Improvement Plan (ASIP).
Conclusion
    We have a lot of work to do to achieve the goals of NCLB, but we 
cannot do it without a strong partnership with the federal and state 
governments. We have felt that our children have been left behind for a 
long, long time and hope that we can work together to turn things 
around so that our children and our children's children can grow up on 
the Reservation, get a quality education, and fulfill their life-long 
dreams and hopes. With such champions as you spearheading the Indian 
education components of NCLB, we have hope that this important endeavor 
can be accomplished so that NO Indian child is left behind.
                                endnotes
    \1\ NCLB, Sec.  7101.
    \2\ Title I School Improvement Year 2 is defined as a Title I 
school that has not made AYP for 3 consecutive years. Upon 
identification, the school must: notify parents/legal guardians of the 
school status; develop and implement a School Improvement Plan within 
90 days of the identification; set aside 10% of the school's Title I 
funds for professional development for teachers and the principal; the 
district must offer parents the option of transfer and offer 
supplemental education services to eligible students, and offer support 
to the school in its school improvement efforts.
    \3\ The Arizona Report Card Academic Year 2006-07 does not show the 
percentage of Ft. Thomas Unified School District students who exceeded 
the AIMS standard.
    \4\ A Title I Restructuring (Implementation Phase) is defined as a 
school that has not made adequate yearly progress (AYP) for six 
consecutive years. Upon identification, the school must: notify 
parents/legal guardians of the school status; develop and implement a 
School Improvement Plan within 90 days of the identification; set aside 
10% of the school's Title I funds for professional development for 
teachers and the principal; the district must offer parents the option 
of transfer and offer supplemental educational services to eligible 
students, and offer support to the school in its school improvement 
efforts. In addition, the school must prepare a restructuring plan and 
make necessary arrangements to carry out one of the three restructuring 
activities. See Section 1116(b) (8) of NCLB for a list of the 
restructuring activities.
    \5\ A Title I Corrective Action is defined as a school that has not 
made adequate yearly progress (AYP) for four consecutive years. Upon 
identification, the school must: notify parents/legal guardians of the 
school status; develop and implement a School Improvement Plan within 
90 days of the identification; set aside 10% of the school's Title I 
funds for professional development for teachers and the principal; the 
district must offer parents the option of transfer and offer 
supplemental educational services to eligible students, and offer 
support to the school in its school improvement efforts. In addition, 
the school must choose and implement at least one of six corrective 
actions. See Section 1116(b) (7) of NCLB for a list of the corrective 
action options.
    \6\ A Title I School Improvement Year 4 or Restructuring (Planning 
Phase) is defined as a school that has not made adequate yearly 
progress (AYP) for five consecutive years. Upon identification, the 
school must: notify parents/legal guardians of the school status; 
develop and implement a School Improvement Plan within 90 days of the 
identification; set aside 10% of the school's Title I funds for 
professional development for teachers and the principal; the district 
must offer parents the option of transfer and offer supplemental 
educational services to eligible students, and offer support to the 
school in its school improvement efforts. In addition, the school must 
prepare a restructuring plan and make necessary arrangements to carry 
out one of the three restructuring activities. See Section 1116(b) (8) 
of NCLB for a list of the restructuring activities.
    \7\ The Arizona Report Card Academic Year 2006-07 does not show the 
percentage of San Carlos Unified School District students who exceeded 
the AIMS standard.
    \8\ The San Carlos Unified School District serves two private 
schools that are located within the boundaries of the district on the 
San Carlos Apache Indian Reservation. These two private are parochial 
schools. One school is a Lutheran school (Grades k-8); while, the other 
is a Catholic school (Grades k-6). Title I does allow its funds to be 
shared with the private schools.
                                 ______
                                 
    Chairman. Kildee.
    Thank you very much for your testimony.
    Mr. Miller? Give my regards to Chairman Payment.

 STATEMENT OF TOM MILLER, BOARD OF DIRECTORS, SAULT STE. MARIE 
                   TRIBE OF CHIPPEWA INDIANS

    Mr. Miller. In fact, he sends his greeting, as does the 
Board of the Directors of the Sault Ste. Marie Tribe of 
Chippewa Indians.
    We would like to take this opportunity to thank you for 
allowing us to testify on the effects of No Child Left Behind 
on the tribes.
    Our tribe is approximately 33,000 members. And we are 
effected across the range of both public and BIE funded 
systems.
    No Child Left Behind is a well-intended law. And being an 
educator first and a tribal council member second, that's how I 
rate myself. No Child Left Behind was really a well intended 
law. Maybe not particularly thought out before it was 
implemented. Its glaring weakness is its effectively 
underfunded mandated. In systems that already taxed for 
operational, whether they be public or BIE education systems, 
we are already stressed to the limit. Accepting a rule or a law 
as this which has additional requirements without money 
following it puts us in a no win situation.
    Funding must accompany the requirement of any law if it is 
to succeed. If education is truly as important as we all say it 
is with these meetings and everything else we're doing, then I 
do not know why we are even talking about funding, but we are 
here and we are doing it right now.
    Another point that many educators have brought up to me in 
the No Child Left Behind law is that largely the law is a 
negative law. Not that it is a bad law, but it is a negative 
effect law. If you go through it, you will see that there are 
penalties for not doing well but there are no rewards for doing 
well, other than we are going to leave you alone. So we think 
that needs to be looked at, like we do with the discipline with 
the children. Children seem to react better to positive 
reenforcement than negative reenforcement.
    The BIE system is largely and historically underfunded on a 
regular basis by at least $1500 per student. We pick up one 
unfunded mandate and we are beyond the capabilities of doing 
anything.
    The other thing that we have is that in facilities. No 
Child Left Behind assumes that all the schools have adequate 
facilities to begin with. That is not so. In the BIE funded 
system we are far beyond. We are in a race now to catch up. We 
are running into problems with the process that we have. So we 
need to really make sure that funding catches up in facilities 
and also that we get educators involved in building schools. We 
have the situation of noneducators basically running our 
construction system, and it is not working to this point.
    A number of other things effect the tribe of Chippewa 
Indians is that Johnson O'Malley has been taking a steady 
decrease and been threatened with funding. We need to make sure 
that that stays where it is at. Because all these reductions in 
laws, whether they be directly related to No Child Left Behind 
or not, effect us. It reduces the amount of educational funds 
that we have to work with.
    Title VII is averaging about $250 a student now in the 
reimbursement. That is down. I think it has to stop and it has 
to go the other way. We need to increase, not decrease the 
amount of funding that we have in those programs that are 
particularly handling Native American students in public 
systems and providing a cultural tie to the tribes.
    Title VII, Impact Aid. Reduced 29 million in the 2008 
budget. The $1.34 billion budget that is needed effects many of 
the students that are on or near reservation lands and the 
ability of those public schools in that area to adequately 
educate native students. It also effects the ability of those 
schools to provide adequate educational facilities.
    Here is what I think I am trying to paraphrase here, is 
that every education is important. And there seems to be a lot 
of concerns with students. I have more faith in the students of 
today than I guess than many do. They know ten times what we 
know. If you do not believe that, when you get in trouble with 
a computer call a child over, he will fix it for you.
    So I think that we are going to come out okay in this. I 
think that it is basically taking the educational information 
that we are teaching children and maybe channeling that to what 
makes them marketable or able to go on to college, or whatever 
the goals would be of that student. But I do have the faith in 
the youth of today. And I think you for the opportunity to test 
it.
    [Statement of Mr. Miller follows:]

  Prepared Statement of Tom Miller, Member, Board of Directors, Sault 
                  Ste. Marie Tribe of Chippewa Indians

    Good morning Chairman Kildee and members of the Subcommittee on 
Early Childhood and Elementary and Secondary Eduaction. Testimony 
opportunities such as this today are important in a process that allows 
for the tribes to submit meaningful comments and suggestions that will 
affect Indian Education. Mr. Chairman, your support of the tribes and 
in particular, the education of our native american children, is well 
known and greatly appreciated. On behalf of the Sault Ste Marie Tribe 
of Chippewa Indians, I would like to personally thank you for your 
steadfast support over the years. My name is Tom Miller, and I am an 
elected member of the Sault Ste. Marie Tribe of Chippewa Indians 
governing Board of Directors. Our Tribe includes over 33,000 members, 
making it one of the largest Tribal Nations in the United States. Our 
membership includes a significant number of school-aged children, in 
the BIE funded system and in public schools, all of whom are impacted 
by No Child Left Behind. I am also the Superintendent of the 
Hannahville Indian School which is located on the Hannahville Indian 
(Potawatomi) reservation in the Upper Peninsula of Michigan. In 
addition to this, I am the school board chairperson for the Bahweting 
Anishnabe School, located on the Sault Ste Marie Tribal reservation, 
also located in the upper Peninsula of Michigan. On behalf of the Sault 
Ste. Marie Tribe of Chippewa Indians and Native American students in 
all schools, I urge your continued commitment to No Child Left Behind 
and to effective education by providing greater funding and flexibility 
necessary for improvement of BIA education, facilities and the 
implementation of Title VII and VIII.
No Child Left Behind Act
    The No Child Left Behind Act is a well intended law with an overall 
goal of increasing the educational levels of our students that is 
commendable. As it now stands, it is largely an unfunded mandate. This 
is of an extreme concern to the schools within the BIE funded system 
which has historically been underfunded and cannot assume any unfunded 
mandates. We are reccomending that the funding be appropriated at 
adequate levels which will allow the schools to be able to pay for the 
required activities that will better achieve the goals of NCLB.
Bureau of Indian Education (BIE)--Title X, Section D
    The Bureau of Indian Education will need increased appropriations 
to allow the schools to successfully compete in this race to raise 
overall academic achievement and make adequately yearly progress (AYP). 
Our base funding with the Indian School Equalization Program (ISEP) had 
yearly trailed the national average of student revenue by at least 
$1500 per student. This coupled with stagnant levels of the Title 
programs, have limited our abilility to keep pace with many of the 
activities needed to increase overall educational performance (e.g. 
teacher quality). We also need a period of stability within the BIE 
system that will allow us to affect the needed changes that must take 
place with many schools. The recent attempt by the Bureau to reorganize 
over the objections of the tribes is classic example of why we must 
have this stability during this important period. If this proposed 
reorganization had taken place, the schools would have been in a state 
of chaos and the education of the students would have affected 
negatively. A better idea would include working with the tribes that 
are in that particular agency or region to design an effective model 
for the BIE to better service the schools and studnets. Adequate 
funding and stability within the BIE system are absolutely necessary if 
we are to meet the raised bar on education as required by NCLB.
    At present, the Bureau of Indian Education (BIE) funded schools are 
in a process of attempting to catch up in the construction of new and 
or renovated educational facilities. Many of the requirements of NCLB 
assume that the schools have the facilities that will allow them to 
perform the educational services that are needed to achieve academic 
success or adequate yearly progress. As of now, our BIE facility 
process of new and replacement school construction has a serious 
disconect with education. There are long periods of delays, mainly 
related to disagreements between the tribes and the Office of 
Facilities Management & Construction (OFMC) on the targeted number of 
students that the school will be sized for. This has ultimately led to 
reductions in the yearly appropriations for construction because of the 
delay in the utilization of the appropriated construction dollars. 
Tribal input is not being given it's proper consideration in this 
process. School construction needs to be brought under the direction of 
BIE. This will bring educators on the Bureau side into the building of 
schools and greatly improve the present process.
Title VII
    Experienced educators within Indian Country will report that Indian 
children learn better and perform better academically, if they 
understand the connection between academic curriculum and Tribal 
culture. Title VII programs are used as a bridge, connecting academic 
and cultural studies together. Currently, the Title VII formula grants 
provide approximately $250 per Indian pupil at public school districts. 
The programming supplements traditional school curriculum with cultural 
programming. Tragically, most school systems are unable to implement 
adequate cultural programs due to inflexible schedules dictated by the 
No Child Left Behind Act. Often, before the ``connection'' between the 
academic subject-matter and the cultural import is made, the rigid 
schedules force teachers to stop teaching and focus solely upon 
testing. Native American students lose out. Equally as unfortunate, 
most school districts receive inadequate funds to implement Title VII 
Indian Education programs for all students. Most focus on academic 
tutoring at the elementary school age and provide little or no services 
to students at the middle and high school ages. Our experience has 
shown that middle and high school years are critical periods for our 
Native American students, as this is when we experience our highest 
dropout levels. It is important for Title VII services include school 
retention services. Please note also, that Title VII funds may be used 
for professional development of teachers. There is a need to provide 
cultural training for teachers, to assist them in working better with 
our Native American students and families. School districts are hard 
pressed to divert Title VII funds away from direct academic services 
and support these training needs. Additional Title VII funds for this 
purpose would assist school districts in supporting this important 
need.
    I urge you to support greater flexibility in curriculum and testing 
schedules. Increased flexibility would encourage the development of 
programs that would effectively combine academic subject matter with 
cultural relevance, improving Native American students' chances for 
success. I also urge you to provide for a 5% increase of $9.3 million 
over the FY 2007 Continuing Resolution level of $195.8 million for No 
Child Left Behind Title VII funding. Specifically: $4 million of the 
increase should go to national research activities (Title VII, Part A, 
Sub Part 3), focusing on analyzing effective approaches and the current 
status and needs of Indian children in school. The remainder should go 
to the Restoration of funding for Education for Native Hawaiians and 
Alaska Native Education Equity. President Bush's cut eliminated its 
funding.
Title VIII
    The Title VIII Impact Aid Program is being reduced by $29 million 
from the proposed FY 2007 Continuing Resolution level, under the 
President's FY 2008 Budget proposal. Please note the proposed FY 2007 
Continuing Resolution level is already inadequately funded, as the need 
for new school facilities far exceeds the funding provided to build new 
facilities. The Sault Ste. Marie Tribe of Chippewa Indians has several 
school districts within its area. School construction needs have 
exploded over recent years. Many of the schools are old and in need of 
repair, or in need of being re-built.
    I urge you to provide a total of $1.342 billion be allocated for 
Impact Aid. The increase of $85 million for the FY 2007 Continuing 
Resolution level would allow for some progress to be made in meeting 
the public school construction needs on reservations throughout the 
country. Keep in mind that the funding used for Impact Aid helps meet 
the needs of Indians and non-Indians alike.
Conclusion
    Thank you for listening to me in my capacity as a Native educator 
and an elected tribal representative. By working together, we can make 
a positive difference in the world for our children.
                                 ______
                                 
    Chairman Kildee.
    Thank you very much, Mr. Miller.
    And Johnson O'Malley, I agree with you. Congressman 
Grijalva has made that a very special interest of his. And I am 
sure he will make comments on that also. This is one of his 
areas of expertise.
    Now Dr. Gilbert.

 STATEMENT OF DR. WILLARD S. GILBERT, PRESIDENT-ELECT NATIONAL 
                  INDIAN EDUCATION ASSOCIATION

    Dr. Gilbert. Good morning, Congressman Kildee and 
Congressman Grijalva. It is a pleasure to see both of you 
again.
    On behalf of the National Indian Education Association I 
would like to thank you for the opportunity to give testimony 
before the House Education and Labor Committee on the No Child 
Left Behind reauthorization and impact on Indian education.
    Founded in 1969, NIEA is the largest organization in the 
nation dedicated to Native education advocacy issues and 
professional development for our Native and non-Native 
educators who teach our Native students.
    NIEA's top legislative priority is to strengthen Indian 
education through traditions that provide a meaningful tribal 
involvement and setting the educational priorities for Indian 
students.
    NIEA has actively prepared for the NCLB's reauthorization 
by conducting 11 field hearings with over 120 witnesses in 
Native communities across the country and has based the 
recommendations on the hearings of testimony of our membership. 
Key categories are at the heart of these recommendations.
    Number one: Improve Title VII to address the unique 
cultural and educational needs of Native children. Title VII 
and NCLB recognize that Native children have unique educational 
needs due to their cultures and backgrounds and the purpose of 
Title VII in NCLB is to provide cultural-based educational 
approaches for Native students. These approaches have been 
proven to increase student performance success as well as 
awareness and knowledge of student cultures, languages and 
histories. Native learning is strengthened through instruction 
that integrates traditional cultural practices with basic 
skills. NIEA is proposing amendments to focus the purpose to 
include both academic achievement through culturally-based 
education and to increase the cultural and traditional 
knowledge base of Indian students. This concept is not new to 
education.
    As far back as 1928 the Marion Report recommended 
incorporation of tribal languages in culture programs in school 
curriculum, recommended Native teachers to teach in schools 
serving Native students, and also was a forerunner in the idea 
of a culture-based education.
    The Indian Education Act of 1972 provided funding to 
develop culturally-based curriculum and actively engaged 
parental participation to develop Native language and culture 
programs and to increase the number of Native teachers. Current 
research demonstrates that cultural education can be 
successfully integrated into the classroom in a manner that 
provides Native students with instruction in four subject 
areas. Any subject matter may be successfully taught in 
curricula to instill the Native traditional and culture 
concepts and knowledge.
    NIEA's science connections research project that I 
personally conducted with the Navajo tribes successfully 
integrated data culture, language and traditions into the 
science curricula and demonstrated that it improved student 
academic achievement and attitude toward science and science 
education.
    All the innovative programs that have improved academic 
success in Indian Country incorporate language and culture. The 
Yukon Indian Education program in Yukon, Oklahoma uses funding 
from Title VII to purchase materials for arts and crafts 
lessons that incorporate reading and math. Additionally, the 
Title VII program has helped 11 schools update their libraries 
with approximately 900 books with Native American content.
    The Anchorage School District has developed a culturally 
responsive six year instructional plan to chart a course for 
closing the academic achievement gap while concurrently 
increasing achievement for all students through implementation 
of a culturally responsive continuum.
    NIEA's proposed amendments to Title VII provide for more 
emphasis on meeting the unique cultural language and 
educational needs of Indian students through enrichment 
programs that supplement other NCLB programs and result in 
academic achievement for Indian students.
    Number two: Strengthen NCLB to provide support for 
instruction in Native American languages. Research demonstrates 
that Native children perform better academically when they are 
taught in a manner that is consistent with their traditions, 
language and cultures.
    Native language immersion programs provide a proven method 
to enable Native students to achieve academically in the areas 
of math, reading and science as well as in other content areas. 
For example, students in a Lower Kuskokwim School District in 
Alaska receive instruction in their Native languages and 
achieve Adequate Yearly Progress. As in the Navajo immersion 
school, both the third and fifth graders are performing at 
higher levels than their mainstream counterparts in the state 
reading, writing and math assessments.
    There are 18 public immersion schools in Hawaii and they 
out perform Hawaii students in public general education. Native 
language immersion students are meeting and exceeding the state 
standards of English and academic standards nationally and we 
are making the academic benchmark of AYP under NCLB.
    Number three: Improve cooperation among tribes, states and 
the Federal Government. NIEA seeks stronger emphasis on 
encouraging states, tribal governments and communities, 
neighboring areas, and the Federal Government to work laterally 
in developing educational standards and related assessments. 
NIEA's proposed amendments provide for the inclusion of tribal 
input on the development of the various state, local and school 
plans.
    Additionally, NIEA's amendments promote coordination of 
programs across Title I and Title VII to foster better 
programming to meet the unique cultural languages and 
educational needs of Indian students.
    Many Native communities are located in rural areas where 
the number of highly qualified teachers is in short supply. 
NIEA seeks to strengthen NCLB by including programs to build 
capacity within Native communities for increasing the pool of 
teachers.
    And number five: Increase funding for NCLB, specifically 
Title VII.
    NIEA supports the strengthening of NCLB, ensuring that 
Title VII cannot be supplanted to meet the shortfalls in tribal 
titles of NCLB. NIEA supports the strengthening of NCLB through 
the inclusion of language that protects the limited resources 
of Title VII. NIEA proposes in its amendment a moderate 
increase from the current authorizing level of $96.4 million to 
$130 million for Title VII Part A and subpart 1, which is an 
amount equal to the increase of five percent each year 
beginning in fiscal year 2003.
    NIEA has also recommended an increase in the 
reauthorization of subparts 2 and 3 to $34 million, which is 
the amount equal to an increase of five percent each year 
beginning in fiscal year '03.
    Thank you very much for giving me this opportunity.
    [The statement of Dr. Gilbert follows:]

Prepared Statement of Dr. Willard S. Gilbert, President-Elect, National 
                      Indian Education Association

    On behalf of the National Indian Education Association (NIEA), the 
oldest and largest Native education organization representing American 
Indians, Alaska Natives, and Native Hawaiian educators and students, 
thank you for the opportunity to submit testimony to the House 
Education and Labor Committee on the recommendations from Indian 
Country on the reauthorization of No Child Left Behind.
    Founded in 1969, NIEA is the largest organization in the nation 
dedicated to Native education advocacy issues and embraces a membership 
of over 3,000 American Indian, Alaska Native and Native Hawaiian 
educators, tribal leaders, school administrators, teachers, parents, 
and students. NIEA works with all tribes to advocate for the unique 
educational and culturally-related academic needs of Native students 
and to ensure that the federal government upholds its responsibility 
for the education of American Indians. The trust relationship of the 
United States includes the responsibility to ensure educational quality 
and access.
    NIEA's top legislative priority is to strengthen the education of 
American Indians, Alaska Natives, and Native Hawaiians through 
effective and meaningful education programs and approaches in the 
reauthorization of the No Child Left Behind Act (NCLB). NIEA is 
committed to strengthening NCLB for Indian Country through provisions 
that provide for meaningful tribal involvement in setting the 
educational priorities for Indian students and of the inclusion of 
Native language and cultural instruction.
    NIEA has actively prepared for the reauthorization of NCLB by 
conducting 11 field hearings with over 120 witnesses in Native 
communities across the country. NIEA has also conducted numerous 
listening sessions and meetings with Native students, educators, school 
administrators, Native parents, and tribal leaders to learn about the 
challenges Native people face under NCLB. Based upon this extensive 
dialogue, NIEA prepared its Preliminary Report on NCLB in Indian 
Country and its NCLB Policy Recommendations. At the end of last month, 
NIEA submitted comprehensive draft legislative amendments to this 
Committee and to the Senate Health, Education, Labor and Pensions 
Committee for consideration for inclusion in the bill that will 
reauthorize NCLB.
    As an organization of Native educators, NIEA supports high 
achievement standards for all children and holding public schools 
accountable for results. Further, NIEA lauds the goal of Title VII of 
NCLB to meet the unique cultural and educational needs of Native 
children. Title VII affirms the Federal Government's support for 
culturally based education approaches as a strategy for positively 
impacting Native student achievement. NIEA wants to strengthen NCLB to 
better serve the needs of Native communities, particularly those who 
live in remote, isolated and economically disadvantaged environments. 
NIEA's amendments to NCLB focus on several key as set forth below.
Improving and Expanding Title VII to Address the Unique Cultural and 
        Educational Needs of Native Children
    Title VII of NCLB recognizes that Native children have unique 
educational needs due to their cultures and backgrounds. The purpose of 
Title VII \1\ of NCLB is to provide culturally based educational 
approaches for Native students. These approaches have been proven to 
increase student performance and success as well as awareness and 
knowledge of student cultures and histories. Part A of Title VII deals 
specifically with the education of American Indian and Alaska Native 
students, and NIEA has proposed amendments to focus the purpose of this 
part to include both academic achievement through culturally based 
education and to increase the cultural and traditional knowledge base 
of Indian students.
    Part A of Title VII contains provisions for American Indian 
Education and provides supplemental grants to local educational 
agencies, tribes, Native organizations, educational organizations, and 
others to provide programs and activities to meet academic, cultural, 
and language needs of Native children. Native learning is strengthened 
through instruction that integrates basic skills with traditional 
cultural practices and embraces the knowledge of the environment, 
Native fine arts and crafts, leadership, character education and 
citizenship.
    Last year, the Department of Education advised Indian education 
programs receiving Title VII funding to shift their focus from the 
teaching of culture to math and reading. In fact, the Department of 
Education wrote a letter to the Superintendent of St. Paul schools in 
Minnesota directing that there be a ``gradual shift of focus from 
history and culture to reading and math.'' \2\ This shift in purposes 
under Title VII causes a great deal of concern for NIEA and our 
members. By law, Native children should have access to culturally 
relevant and appropriate curriculum that support their academic 
achievement so that they may meet the standards that all children are 
supposed to meet.
    At each of the 11 hearings that NIEA held on NCLB, concern was 
highly focused on the significant narrowing of the curriculum and the 
decrease in the use of culturally appropriate teaching approaches known 
to be effective for Native students given the increased focus on 
testing and direct standardized instructional approaches. NIEA is 
witnessing a broad-based reduction and diminishment of culturally based 
education in schools which provide an effective and meaningful 
education for Native students. In classrooms across Indian Country, 
Native languages and cultures are being used less and less in teaching 
Native students math, science, or reading because Indian children are 
drilled all day long on the materials contained on standardized tests. 
These teaching methods do not work when teaching Indian children. 
Generally speaking, our children see and order their world very 
differently from most other children due to their culture and ways of 
life, and, as a result, learn in different ways.
    NIEA strongly believes that cultural education can be successfully 
integrated into the classroom in a manner that would provide Native 
students with instruction in the core subject areas based upon cultural 
values and beliefs. Math, reading, language arts, history, science, 
physical education, music, and cultural arts can be taught in 
curriculum steeped in Native traditional and cultural concepts. 
Innovative programs that have proven academic success in Indian Country 
incorporate language and culture.
    The Yukon Title VII/Indian Education Program in Yukon, Oklahoma 
uses funding from Title VII to purchase materials for arts and crafts 
lessons that incorporate reading and math. Additionally, the Title VII 
program has helped each school (11 in all) update their libraries with 
close to 900 books with Native American content. The Anchorage School 
District located in Anchorage, Alaska has developed a culturally 
responsive six year instructional plan to chart a course for closing 
the achievement gap while concurrently increasing achievement for all 
students through implementation of a culturally responsive continuum. 
The plan is based on a survey where responses indicated that culturally 
related solutions (more Native culture, more Native language, more 
Native teachers) were most commonly the reasons for improving schools 
for Alaska Natives.
    Given that Native children are performing at far lower academic 
achievement levels than other categories of students, Title VII 
programs should be expanded and strengthened to ensure that No Child 
Left Behind also means No Culture Left Behind through the use of 
culturally based education to meet the unique educational needs of 
Native students. NIEA's proposed amendments to Title VII provide for 
more emphasis on meeting the unique cultural, language and educational 
needs of Indian students through enrichments programs that supplement 
other NCLB programs and will result in academic achievement of Indian 
students. In FY 2006, Title VII served over 469,000 Indian students and 
1,196 local education agencies.
Strengthening NCLB to Provide Support for Instruction in Native 
        American Languages
    Titles III, Subparts A and B, as well as Title VII currently allow 
for Native language instruction; however, these provisions should be 
strengthened so that schools can successfully achieve their educational 
goals and meet academic standards. NIEA's proposed amendments to 
support Native languages provide additional support for language 
immersion schools and restoration programs in addition to language 
activities inside the classroom. Research shows that Native children 
perform better academically when they are taught in a manner that is 
consistent with their traditions, languages, and cultures. Native 
language immersion programs, which have been proven to dramatically 
improve Native student achievement in English and in Native languages, 
highlight the reasons to strengthen Title VII.
    Specifically, Native language immersions programs have fostered 
higher academic achievement and interest in learning from American 
Indian, Alaska Native, and Native Hawaiian students. Studies have shown 
that, while Native American children and youth have exhibited stagnant 
educational achievement (and have the poorest achievement of all 
American ethnic groups), Native language immersion has demonstrated 
remarkable promise in educational achievement.\3\ National studies on 
language learning and educational achievement indicate the more 
language learning, the higher the academic achievement. Native language 
immersion programs provide a proven method to enable Native students to 
achieve academically in the areas of math, reading, and science as well 
as in the areas of arts and languages. For many Native students living 
in rural and isolated areas, subjects that are taught in non-cultural 
pedagogies and removed from a tribal perspective are often lost on 
Native students due to the non-relevance of the materials to their 
lives and identities.
    Solid data from the immersion school experience indicates that 
language immersion students experience greater success in school 
measured by consistent improvement on local and national measures of 
achievement.\4\
    For example, students in the Lower Kuskokwim School District in 
Alaska receive instruction in their Native languages and achieving 
Adequate Yearly Progress (AYP). In a Navajo immersion school, both the 
third and fifth graders are performing at higher levels than their 
mainstream counterparts in the state reading, writing, and math 
assessments. Native students attending language immersion schools are 
learning state content standards of math, reading, writing, science, 
and social studies in addition to Native language and culture 
standards. Native language immersion students are meeting and exceeding 
the state standards in English and academic standards nationally and 
are making the academic benchmarks for AYP under NCLB.
    While data specific to Native American language immersions schools 
is continuing to be compiled, national studies from both the public and 
private sectors emphasize the positive impact of language studies on 
educational achievement.\5\ Language revitalization and maintenance 
programs must be incorporated into NCLB so that the implementation of 
education provisions does not hinder or preclude the offering of Native 
American languages efforts, including immersion for Native Americans as 
a part of their educational experience. NCLB must recognize and support 
Native language revitalization and maintenance efforts of Native 
American communities.
Improving Cooperation Among Tribes, States, and the Federal Government
    NIEA seeks stronger emphasis in encouraging states, tribal 
governments and communities, neighboring areas, and the federal 
government to work together in developing the educational standards and 
related assessments. NIEA's proposed amendments provide for the 
inclusion of tribal input on the development of the various state, 
local educational agency, and school plans. Additionally, NIEA's 
amendments promote coordination of programs across Titles I and VII to 
foster better programming to meet the unique cultural, language, and 
educational needs of Indian students.
    NIEA supports the strengthening of NCLB assessments that considers 
the cultural and educational needs of Native students. States should be 
required to involve tribes located within their boundaries in the 
development of state plans to allow for the coordination of activities 
under the different titles of NCLB. Further, NIEA supports the 
strengthening of NCLB to provide resources for collaboration among 
tribes, states, and the Federal Government to allow for increased 
opportunities in the development of standards that recognize the 
cultural backgrounds of Native students. Local educational agencies 
should also be required to consult and seek the input of tribes located 
in the areas they serve when developing their district plans.
    Throughout NIEA's extensive consultation with Indian Country, we 
have learned that when a school is placed on school improvement for 
failing to make AYP, they are often advised to focus their activities 
on reading and math programs. This redirected and ill- advised focus 
results in the exclusion of language and cultural programs to the 
detriment of increasing achievement for Native students. NIEA has 
proposed that school improvement plans include the input of tribal 
representatives and promotion of culturally based education as a proven 
method of increasing academic achievement.
Improving Support for Teachers of Native Students
    Many Native communities are located in rural areas where the number 
of highly qualified teachers is in short supply. NIEA seeks to 
strengthen NCLB by including programs to build capacity within Native 
communities for increasing the pool of teachers. This initiative to 
provide for improved professional development through pre-service and 
in-service training for teachers and administrators would also prepare 
Native peoples to become highly qualified teachers who are also 
cultural practitioners and can continue upon a career ladder as School 
Administrators, Board of Education members, and community educators.
    The definition of ``highly qualified teacher'' in NCLB for teachers 
who educate Native students enhances school accountability through the 
achievement of AYP. When teachers are able to understand and apply 
culture and language skills and abilities of Native students in their 
classes, the students flourish. This definition of highly qualified 
should include opportunities for Native language and cultural experts 
in the curricular programs of schools.
Improving Opportunities for Parents, Families, and Tribes and other 
        Native Communities to Participate in the Education of Native 
        Children
    The schools that are successful are the schools where the parents, 
families, tribes, and the local communities are actively involved and 
engaged in the school's programs and activities. NCLB should be 
strengthened to allow increased opportunities for parents, families, 
and tribes and other Native communities to become more involved in 
their children's schools and in the development of their educational 
programs. NIEA advocates for increased parental involvement by 
improving their knowledge, skills and understanding of standards-based 
education and school accountability. NIEA supports NCLB in the 
promotion of standards-based education as a family responsibility that 
helps children to achieve.
Improving the Measurement System for Adequate Yearly Progress
    The current accountability system needs to be strengthened to allow 
for broader measures of academic achievement over a period of time 
within the 2014 goal. Instead of focusing on state-wide standardized 
tests in only math and reading, NCLB could be strengthened to include 
success on multi-disciplinary and multi-level curriculum and 
instruction as additional measures of achievement.
    Many factors in Native communities affect student and school 
achievement, such as poverty, transportation, poor health care, and 
poor housing. NIEA supports the encouragement of best practices that 
increase Native student academic achievement but also seeks flexibility 
in achievement measures to accommodate these extenuating factors. 
Further, flexibility in the measurements for accountability could 
accommodate Native language immersion programs, which have been proven 
to significantly increase Native student academic achievement over 
time. To further explain, Native language immersion schools have 
reported to NIEA that they struggle in the early elementary schools 
grades to meet AYP because the testing is in English. However, over 
time, these same students in the latter elementary school grades 
dramatically outperform their peers academically on tests in English 
and that these immersion schools are meeting AYP.
Requiring the Collection of Data and Research on the Education of 
        Native Children
    NIEA supports the strengthening of NCLB by providing resources to 
conduct culturally based research. Support for best practices research 
to educate Native students and use of indigenous research criteria for 
federally assisted education programs benefits Native student 
achievement and improves academic measures of school success. NIEA 
supports the strengthening of NCLB to build capacity of Native 
education systems to develop, implement, collect and analyze systematic 
data on the educational status and needs of Native students. NIEA 
supports the strengthening of NCLB to assist Native education systems 
to use data to inform and improve student academic achievement. NIEA 
supports the strengthening of NCLB through partnerships with Native 
education school systems and the Departments of Education and Interior. 
This research initiative could provide for partnerships to support 
efforts in Native communities that improve education program services 
and program accountability.
Increasing Funding for NCLB, especially Title VII
    When NCLB was enacted, Congress promised to provide the resources 
necessary to meet its many requirements, provide school improvement 
funds to schools that failed AYP, provide increased resources 
especially for disadvantaged students and to help close achievement 
gaps by improving teacher quality, student achievement, and program 
accountability. However, NCLB has never been funded at the authorized 
levels. NIEA supports the strengthening of NCLB Title VII through 
resources that would support pre-service and in-service training for 
teachers, resources that support national research activities, 
fellowships for Native students, programs for gifted and talented 
Native students, grants to tribes for education administrative planning 
and development, educational services programs for Native students, and 
educational opportunity programs for Native students. Only by funding 
these critical programs on a sustained basis can we ensure that No 
Child is Left Behind.
    NIEA also supports the strengthening of NCLB by providing resources 
that adequately fund Title I programs. NIEA supports the strengthening 
of NCLB by ensuring that Title VII resources cannot be supplanted to 
meet the shortfalls in other Titles of NCLB. NIEA supports the 
strengthening of NCLB through the inclusion of language that protects 
the limited resources of Title VII.
    NIEA continues to be concerned with the inadequate funding in the 
Department of Education and the Department of Interior, Bureau of 
Indian Affairs, for Indian education programs and activities. Due to 
the tight federal budget, NIEA proposes in its amendments a moderate 
increase from the current authorizing level of $96.4 million to $130 
million for Title VII, Part A, Subpart 1, which is an amount equal to 
an increase of 5% each year beginning in fiscal year 2003. NIEA has 
also increased the authorization for Subparts 2 and 3 to $34 million, 
which is an amount equal to an increase of 5% each year beginning in 
fiscal year 2003.
Bureau of Indian Affairs Schools
    There are only two education systems for which Federal government 
has direct responsibility: the Department of Defense Schools and 
Federally and Tribally operated schools that serve American Indian 
students through the Bureau of Indian Affairs (BIA) within the 
Department of the Interior. The federally supported Indian education 
system includes 48,000 elementary and secondary students, 29 tribal 
colleges, universities and post- secondary schools. Approximately 10% 
of Native children attend BIA schools while the remaining 90% attend 
public schools supported through the Department of Education.
    Only one third of the BIA funded schools are achieving AYP. NIEA is 
concerned about the applicability of state standards to Native children 
attending BIA schools. More often than not, states develop the 
standards without consultation and inclusion of the tribal communities. 
Tribal communities are in the best position to determine the needs and 
the appropriate assessment methods for Native students. NIEA's 
amendments provide for the ability of a consortium of tribes, BIA 
funded schools, or school boards to apply for a waiver of the 
definition of AYP. Currently, a single tribe, school board or BIA 
funded school may apply for a waiver, however, considering the 
significant amount of time and resources needed to successfully submit 
an application, very few tribes, if any, have been able to submit an 
application on their own. NIEA strongly supports the possibility of 
developing and applying alternative tribal standards to measure AYP for 
students attending BIA schools.
Conclusion
    NIEA is committed to accountability, high standards and rigorous 
education of our children; however, the implementation of NCLB by the 
federal government does not enable Native students to meet their 
academic potentials given the lack of consideration of their cultures, 
languages, backgrounds, and identities. Cultural identity and rigorous 
educational standards are compatible and complementary. We believe with 
good faith collaboration that we can provide our children with an 
education that honors who they are as Indian children while preparing 
them for successful futures as they define it.
    As part of its efforts on reauthorization, NIEA will continue to 
perform as much outreach as possible so that the Congress can better 
understand the needs of Native students, thereby allowing student needs 
to be addressed during reauthorization of NCLB. We are extremely 
appreciative of Chairman Dale Kildee's unparalleled support for Indian 
education and for his tireless and steadfast commitment to Indian 
Country. Indian Country has no better friend than Chairman Kildee. We 
are also appreciative of Chairman George Miller's and Representative 
Stephanie Herseth Sandlin's tour of school conditions and meetings with 
students, teachers, and tribal leaders at the Pine Ridge and Rosebud 
Reservations in South Dakota on March 22, 2006. We thank this Committee 
for making Indian education a top priority and for holding this 
important hearing today. We hope that there can continue to be more 
Congressional outreach to Indian Country, including additional field 
hearings in other regions of Indian Country, so that the challenges and 
issues impacting Native students can be better understood.
                                endnotes
    \1\ Title VII of the No Child Left Behind Act incorporates the 
Indian Education Act of 1972.
    \2\ Correspondence from Bernard Garcia, Group Leader, Office of 
Indian Education, U.S. Department of Education, to Patricia Harvey, 
Superintendent, St. Paul Public Schools, received on November 4, 2005.
    \3\ Pease--Pretty on Top, Janine. Native American Language 
Immersion: Innovative Native Education for Children & Families. 
American Indian College Fund: Denver, Colorado. 2003.
    \4\ McCarty, Teresa L. and Dick, Galena Sells. ``Mother Tongue 
Literacy and Language Renewal: The Case of the Navajo.'' Proceedings of 
the 1996 World Conference on Literacy. University of Arizona: Tucson, 
AZ. 1996.
    \5\ Sugarmen, Julie and Howard, Liz. ``Two Way Immersion Shows 
Promising Results: Findings of a New Study.'' Center for Applied 
Linguistics, ERIC/CLL Language Link. ERIC Clearinghouse on Language and 
Linguistics: Washington, DC. September 2001, p. 2-3.
                                 ______
                                 
    Chairman Kildee. Thank you. Thank you very much for your 
testimony.
    And Dr. Bordeaux?

   STATEMENT OF DR. ROGER BORDEAUX, DIRECTOR, ASSOCIATION OF 
                    COMMUNITY TRIBAL SCHOOLS

    Dr. Bordeaux. Thank you, Mr. Chairman, and Members of the 
Committee for allowing us to spend a few minutes with you just 
to talk about the impacts of NCLB on Indian education in the 
different areas.
    I want to especially thank you for the nearly 30 years of 
helping Indian children and Indian tribes and Indian 
communities, specifically with education. When you decided to 
take over Indian education for the Committee on Ed and Labor in 
1979, that was a real wise decision on your behalf and it has 
helped us greatly.
    One of the examples is our own school itself at Tiospa 
Zina. In 1984 you specifically worked with the Administration 
to make sure that we were able to get a 638 contract because of 
some moratorium language there. And just to make sure that you 
understand that we are grateful for what you did.
    Our school started in 1982 with 12 kids. And this year we 
are servicing over 600 children. And it is something that you 
had a great impact on in establishing. And those are the kind 
of success that exist in Indian communities and tribal schools 
in a lot of other places. It is not all about making adequately 
yearly progress, it is not all about making sure 100 percent of 
our children are proficient, even though that is a very good 
goal to have. I mean, there are a lot of other successes that 
exist in Indian communities that need to be recognized instead 
of saying you make it or do not make it AYP and you are up the 
creek. So, I think, you got to make sure that people understand 
that education is not only about making adequate yearly 
progress. And we have some suggestions for possible changes in 
doing that.
    You also heard from a number of other people about the 
problem with the resources that we have. For tribal schools 100 
percent of our funding is federal funding. The only other money 
we get is we have to go out and solicit money from our tribes 
or possibly in a few cases are able to get some state funds. 
But all of our funds are federally funded. So we have to go to 
Congress and advocate for what we need.
    Tom said there is a $1500 shortfall in basic support in 
tribal schools, shortfall in Johnson O'Malley, the unfunded 
stuff; everything that happens with NCLB is a direct result of 
what the Administration recommends to Congress and what 
Congress is able to pass. So that is something that is really 
important to us is in working with the Federal Government to 
try to get those resources that we need.
    There is a lot of schools that are on reservations that are 
in the poorest counties of the United States. I think I said 
that in our testimony, that the top 15 poorest counties in the 
United States, seven of them are in North and South Dakota. And 
the poorest county, their average per pupil--I mean their 
average income in a household is a little over $5,000 a year. 
So if you have a family of four and you tried to live on $5,000 
a year, it is very difficult.
    In making a decision, even if your student happens to be 
late in the morning for five or ten minutes, making a decision 
to feed your family for the $5 that you have or buying a gallon 
and a half of gas to take your child to school and back is a 
real tough decision to make. I mean, people got to realize that 
a lot of communities, and especially Indian communities, are in 
the poorest counties of the United States and they need some 
specific help in trying to help themselves to become better. 
And the best way for that to do is through education.
    I had also provided three or four different illustrations 
to talk specifically about what I consider deficit model for 
academic improvement. A lot of the schools that are struggling 
right now with making adequate yearly progress I would almost 
venture to guess that nearly 100 percent of them are proud of 
their school and they are making academic success. But because 
they started out when No Child Left Behind started, because 
they started out below the state's average on making adequately 
progress, they have to make the 20 or 30 percent deficit up in 
one or two years or three years to try to make it--to make 
adequately yearly progress, even if you try to use Safe Harbor 
or two year averaging. If the school's population starts at 30 
percent and the state starts at 50 or 52 percent, there is a 
deficit right there, but the law expected them the very next 
year to be up where adequate yearly progress is. And if you are 
not able to make it, you can increase from 30 to 35 to 38 to 40 
and stuff like that. You may not make it through--you will not 
make it through the normal way. It will be real difficult to 
make it through Safe Harbor or using the 2 or 3 year averaging 
process. But there has to be a way of recognizing academic 
progress and still not making adequate yearly progress. So we 
have a lot of written recommendations for you, and hopefully 
you will take a look at the recommendations that we have.
    Thank you.
    [Statement of Dr. Bordeaux follows:]

  Prepared Statement of Dr. Roger Bordeaux, Director, Association of 
                        Community Tribal Schools

    My name is Dr. Roger Bordeaux; I am a Sicangu Lakota serving as the 
superintendent of Tiospa Zina Tribal School on the Sisseton Wahpeton 
Oyate reservation, the Executive Director of the Association of 
Community Tribal Schools Inc. (ACTS) and a board member of Oceti 
Sakowin Education Consortium. I have been the Superintendent for 17 
years and the Executive Director for 22 years.
    Chairman Kildee and members of the Sub-Committee on Early 
Childhood, Elementary and Secondary Education I would like to thank you 
for holding this field hearing on the NCLB impact on Indian Education. 
Mr. Chairman since you took over responsibility to oversee Indian 
Education issues for Committee on Education and Labor in 1979, you have 
been our staunchest advocate for American Indian Tribes and their 
desire for self determination. You have fought to remind America of the 
many treaties the federal government has with the Indian people. I 
remember the fights you helped us with, including keeping BIA Education 
out of the new Department of Education in the 1970's, arbitrary and 
unilateral school closure attempts of the 1980's, helping with the 
passage of the Tribally Controlled Schools Act of 1988, advocating for 
positive change to the Elementary and Secondary Education Act, through 
specific Indian Education amendments, in the 1990's and helping with 
specific Indian Education language in the No Child Left Behind Act of 
2002. The Chairman of the Education and Labor Committee, Mr. George 
Miller, is also a strong advocate for Indian Education and showed his 
advocacy by visiting the Pine Ridge and Rosebud Reservation in the fall 
of 2006. We are blessed that at this critical time of decisions 
regarding Indian students, local control and the future of Self-
Determination, we have our greatest advocate for Indian Education in a 
position to assist us.
    Mr. Chairman, I'd like to remind you that you have a very close 
relationship with our school, Tiospa Zina. Despite the Self-
Determination Act of 1975 and the Education Amendments of 1978, in 
1981, Assistant Secretary Smith had the BIA place an effective 
``moratorium'' on new schools. Sine there was no authority for such an 
act, the BIA made this effective by slowing down the processing of 
applications, in our instance losing the paperwork at least once. In 
1984, you were directly responsible for cutting through this red-tape 
at the BIA and making sure we were offered our first contract under 
self-determination. This is in keeping with your long history of 
advocacy for Indian Tribes, Indian people, Indian children and Indian 
schools and we remember it. Tiospa Zina started in the spring of 1982 
with 12 students as an alternative to a public schools system which 
showed little interest in its Indian students. Now, in excellent 
facilities, serves over 600 students each year. Prior to the start of 
Tiospa Zina the local public school drop out rate of tribal members was 
75%. The drop out rate for Tiospa Zina is about 40% and we have 
graduated over 375 tribal students since we started.
Tribal schools
    The tribal school movement started in 1966 with Rough Rock 
Demonstration School (which ironically was an Office of Economic 
Opportunity grant). Tribal schools were started for one primary 
reason--dissatisfaction with the education content and quality provided 
to Indian students in public and BIA operated schools. When the 
Education and Labor Committee jerked the BIA into the 20th Century with 
its sweeping changes to Indian education law in 1978, the BIA ran more 
than 230 schools, of which only 5 were accredited by any organization. 
Drop outs were expected, and going to college was a dream for many and 
a reality for few. Indian tribes, educators and, most of all, parents 
knew there had to be a better way.
    In the early 1970's, Tribes and communities began to take action 
under many funding mechanisms. The Indian Education Act of 1972 allowed 
alternative schools to get started. Tribes devoted other funds and 
whole communities gave time and money. Originally, there were fewer 
than 15 tribal schools, now there are over 125 Tribal elementary and 
secondary education programs, serving more than 28,000 students. Many, 
though not all, of these schools were created by Tribal take-overs of 
BIA programs.
    The tribal schools provided a new educational philosophy for Indian 
communities. We came to our task, not as outsiders, but as Members of 
communities who cared about, and for, our future. Expectations rose and 
children and parents began to see education as a means to an end--
success in Life, as defined by our Indian Community, not some other 
segment of society. We taught that one can be successful in the World, 
in America, in our States, and in our Tribal communities through 
recognizing who we are and making that our goal. Curricula were 
invented and refined--teachers became long term parts of the Children's 
lives. Community school boards met and took meaningful action. Our 
counterparts in public schools realized our children were well educated 
and could do well, which made relationships between schools possible. 
The new relationship with the schools are decreasing drop out rates. 
The schools have articulation agreements with local tribal colleges. 
Graduation rates increased and so did college participation. As more 
Tribal Members went to college, we had more resources, folks with 
degrees and expertise which they willingly brought back to their 
reservations and homes. They became role models for other children, and 
the future has become brighter.
The challenge
    We are becoming more and more successful despite the challenges we 
face in many Tribal communities. Mr. Chairman, I know you realize the 
conditions on many Indian reservations which make our success more 
difficult and more rewarding. You know that when we talk of poverty and 
lack of educational, social and learning resources, we are not just 
``looking for excuses to fail'' or ``restating past situations''. These 
are ongoing facts. Substandard and poor housing is a fact, and it 
cripples many of the abilities generally considered critical to 
success. Unemployment and its attended curses of alcoholism and what is 
recognized as an epidemic of methamphetamine abuse make it hard 
sometimes for children to see the way to a successful future.
    We need to be sure you can communicate to Congress and the other 
Members, on our behalf, the reality of these situations and the fact 
they do make a substantial difference in our ability to meet the model 
of measuring success set forth in No Child Left Behind. We know that 
other schools have similar problems and their own concerns. However, in 
no other school system do we find such a conjunction of problems, which 
have been of such long-standing, and a history of local control which 
goes back less than 20 years.
    The current model of a deficit school improvement program as found 
in NCLB is simply not applicable, especially in rural, poor, Indian 
reservation areas. Many of the schools funded by the BIA that are in 
school improvement, corrective action, and restructuring are in the 
poorest counties of the United States. For instance, six of the 15 
poorest counties in the United States are in South Dakota and 1 of them 
is in North Dakota. These counties are within the Crow Creek Sioux 
Tribe, Oglala Sioux Tribe, Rosebud Sioux Tribe, Cheyenne River Sioux 
Tribe, and Standing Rock Sioux Tribe reservation boundaries. The lowest 
per capita income was $ 5,213. (Statistics derived from U.S. Census 
Bureau data; U.S. Department of Commerce, Bureau of Economic Analysis, 
Survey of Current Business; and DataQuick Information Systems, a public 
records database company located in La Jolla, San Diego, CA.)
NCLB--problems
    We know many in Congress who support NCLB. We support its concept--
for Indian Tribal people, no person should be left behind. We support 
mastery of education topics for all our students, and we do not seek 
special consideration unless it is justified. However, reality must 
drive the program as it relates to BIA funded schools or failure is a 
foregone conclusion. These are the realities for us in NCLB:
    1) We still face inadequate resources. I KNOW TALKING FUNDING IS 
UNPOLITIC WITH SOME AND MAY LEAD TO DEAF EARS BEING TURNED IN OUR 
DIRECTION. However, I also know you understand our plight. The BIA 
budget request is not computed based on any measure of real need to run 
the program. In fact, BIA regulation state clearly:
    ``25 CFR 39.101 Does ISEF assess the actual cost of school 
operations?
    No. ISEF does not attempt to assess the actual cost of school 
operations either at the local level or in the aggregate at the 
national level. ISEF provides a method of distribution of funds 
appropriated by Congress for all schools. ``If this isn't clear enough, 
it is restated in essentially the same language at 25 Fed. Reg 39.201. 
This is on spite of a BIA's own policy statement (25 Fed. Reg. 
32.4(aa)) that it will ``[A]gressively seek adequate appropriations * * 
*''. I submit to you that if any state entity or local school board 
said its budget to ``fund'' its schools was not based on what needed 
for the program, the public would not stand for it.
    2) However, this does not mean the BIA does not have a method for 
computing such a need based sum. That is also found in regulations, 
which involve a computation for academic costs and home-living/
residential costs. If these computations were made and then the budget 
was submitted based upon the total, much more progress in Indian 
Education would be possible.
    However, despite the presence of these regulations, the BIA simply 
does not make the computations and does not submit this information to 
Congress. Why does Congress not require such a submission?
    3) As the following chart illustrates, the amount for the Indian 
Student Equalization Fund, which funds all of our academic and 
residential facilities, is actually going down when inflation is 
included to the total amount.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    4) Unlike any other school district in the Country, our schools are 
wholly reliant on federal funding. Federal funds do not make up 8--10% 
of our funding. They are the whole package. Title I of NCLB does not 
fund a small part of our program--it funds over 18%, with IDEA funds 
essentially covering the majoriy costs for children with disabilities. 
We have nowhere else to go for money--not the State, not the local 
jurisdictions, nowhere.
    5) As was noted above, this inadequacy of funding is exacerbated by 
the serious conditions of poverty and lack of resources in our 
communities in general. These problems, from housing, to unemployment, 
to inadequate health care, to meth are also partially caused by no 
funding in those problems. All of these factors bring their combined 
misery to the school door.
    6) We do not ask for special treatment, and we do not say progress 
for the schools and the children is not possible. It is and we stand 
behind our proud record of achievement in the last two decades. We want 
to be a part of the greatest school system on Earth, the schools of the 
United States of America, and whatever happens, we will remain 
committed to our children, our communities, our Tribes, and our Nation.
    We are, however, concerned that those who govern our future through 
the consideration of NCLB and any amendments to it, may make decisions 
not based on correct information. We do not want to have the good we 
have done undone when we have not been allowed an adequate chance for 
success. That is what we see in the actions of some States and in the 
``recent consultation'' of the BIA and the Department of Education.
    States are eligible for many programs in NCLB and other Federal 
laws to which the Tribes have no access. In order to get access, they 
tell us our schools must alter our programs, standards and process to 
conform with State restrictions. In some instances, we believe the 
States are making these demands to accommodate Federal agency pressure 
to have all programs receiving a benefit fit one pattern. In some 
States, it is simply a matter of Administrative actions. In any event, 
such pressure means less local control. After over 100 years of schools 
being controlled by non-local, non-Indian entities, we ask that some 
provision be made in the reauthorization to accommodate Tribally 
operated schools within these programs.
    Of primary concern, however, is potential action by the BIA, the 
Department of Education, and the Administration to use failure to meet 
AYP as an excuse to force Tribal schools to either 1) radically change 
their programs and make-up, thus re-establishing a Federal, BIA run/
operated system, close or 2) have these children attend public schools, 
public schools which are ill prepared and over crowded in most of our 
communities.
    Our Concern is real. Mr. Kildee, you, more than any other Member, 
must remember the past fights to establish and maintain local control 
and self-determination. You were the author and sponsor of the Tribally 
Controlled Schools Act, the direct response to the BIA closures and 
threats of unilateral action of the 1980s. You stood on the floor to 
fight the closure of the Phoenix Indian School and the InterMountain 
Tribal School, because you knew that was wrong. You sponsored the 
language prohibiting unilateral action by the Secretary of Interior for 
any closure:
    ``SEC. 127. Section 1121(d) of the Education Amendments of 1978 (25 
U.S.C. 2001(d)) is amended by striking paragraph (7) and inserting the 
following:
    `(7) APPROVAL OF INDIAN TRIBES--The Secretary shall not terminate, 
close, consolidate, contract, transfer to another authority, or take 
any other action relating to an elementary school or secondary school 
(or any program of such a school) of an Indian tribe without the 
approval of the governing body of any Indian tribe that would be 
affected by such an action.' ''
    How crucial this language is was shown when it was deleted by 
accident in the original NCLB. The Administration, through the BIA, 
actually began to plan forcible modification to Tribal programs, with 
the reason that the provision barring such unilateral action was gone. 
It had to be hurriedly replaced in 2004.
    We are concerned the failure to reach AYP in some BIA funded 
programs will lead to the argument that the schools are not meeting the 
needs of their students, they are ``bad'' schools, and that resumption 
of the school by the Federal government or another authority should 
somehow be undertaken. At the least, we are concerned that BIA or 
Department of Education will be allowed to force unilateral changes in 
programs without regard for the true factors causing problems and 
without allowing Tribal control.
    Now we ask that you hear our voice and continue your proactive 
support of Indian Education as well as insure that any reauthorization 
does not diminish the local control of Indian Education.
NCLB and solutions
    1. The current Deficit Model of Academic Success in Title I of NCLB 
is flawed and can be fixed by recognizing school success even when a 
school does not reach the annual measured objective (AMO) and 
specifically target poor areas with a 150% allocation
    The current Title I model of school improvement provides penalties 
for schools that do not reach annual measured objective established by 
states. The state's AMO is directly related to state content standards 
and are based on the total population of the state. There was little or 
no participation from tribal governments and tribal schools in the 
development of the state content standards and state assessments. We 
are treated as second class citizens and are now being blamed for 
schools not making adequately yearly progress. This is even worse for 
the students with disabilities not to mention tribal students who have 
disabilities.
    The law requires all states to disaggregate data based on types of 
students. The disaggregated groups include low income, minorities, and 
students with disabilities. Many of the disaggregated groups started 
far below the state average targets but were expected to make more 
progress than the rest of the population. If any of the disaggregated 
groups did not make annual measured objectives (AMO), then the school 
did not make adequate yearly progress (AYP). Even if a school and the 
disaggregated group makes annual academic progress but never reach's 
the AMO they are classified as a bad school. The following chart 
illustrates the deficit model.
    Illustration 1.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    The above illustration shows that even when the school and the 
disaggregated groups made academic progress, they do not make AYP. 
Schools and disaggregated groups that do not make AYP are considered 
non-performing, almost ``bad'' schools and end up in corrective action 
or restructuring. These ``bad schools'' will also lose financial 
resources and students because NCLB allows students and parents to use 
Supplemental Educational Services.
    The following chart show academic progress at Tiospa Zina Tribal 
School over a number of years but the school has been in and out school 
improvement primarily because of disaggregated groups (SPED). The 
school made adequately yearly progress this past year because of the 
use of safe harbor. Over 50% of the students at TZTS have been at the 
school for less than 4 years. The majority of the students came from 
public schools.
    Illustration 2.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Illustration 3.

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Illustration 4 shows the effects of SPED disaggregated populations. 
The TZTS Spring 2005 achievement results are shown with and without 
SPED student data.
    Illustration 4.

                                              READING COMPREHENSION
----------------------------------------------------------------------------------------------------------------
                                                                    All Students          Without SPED students
                                                             ---------------------------------------------------
                                                                 Number     Percentile     Number     Percentile
----------------------------------------------------------------------------------------------------------------
Basic.......................................................          103        (45%)           59        (36%)
Proficient..................................................          117        (52%)          101        (60%)
Advanced....................................................            7         (3%)            7         (4%)
----------------------------------------------------------------------------------------------------------------


                                              MATH PROBLEM SOLVING
----------------------------------------------------------------------------------------------------------------
                                                                    All Students          Without SPED students
                                                             ---------------------------------------------------
                                                                 Number     Percentile     Number     Percentile
----------------------------------------------------------------------------------------------------------------
Basic.......................................................          113        (50%)           69        (41%)
Proficient..................................................          108        (48%)           92        (55%)
Advanced....................................................            6         (2%)            6         (4%)
----------------------------------------------------------------------------------------------------------------


                                                  LANGUAGE ARTS
----------------------------------------------------------------------------------------------------------------
                                                                    All Students          Without SPED students
                                                             ---------------------------------------------------
                                                                 Number     Percentile     Number     Percentile
----------------------------------------------------------------------------------------------------------------
Basic.......................................................          111        (49%)           73        (44%)
Proficient..................................................          107        (47%)           87        (52%)
Advanced....................................................            8         (4%)            6         (4%)
----------------------------------------------------------------------------------------------------------------


                                                     SCIENCE
----------------------------------------------------------------------------------------------------------------
                                                                    All Students          Without SPED students
                                                             ---------------------------------------------------
                                                                 Number     Percentile     Number     Percentile
----------------------------------------------------------------------------------------------------------------
Basic.......................................................           88        (39%)           56        (34%)
Proficient..................................................          129        (57%)          104        (63%)
Advanced....................................................            9         (4%)            6         (3%)
----------------------------------------------------------------------------------------------------------------


                                                 SOCIAL SCIENCE
----------------------------------------------------------------------------------------------------------------
                                                                    All Students          Without SPED students
                                                             ---------------------------------------------------
                                                                 Number     Percentile     Number     Percentile
----------------------------------------------------------------------------------------------------------------
Basic.......................................................           65        (29%)           42        (26%)
Proficient..................................................          146        (63%)          110        (68%)
Advanced....................................................           11         (4%)           10         (6%)
----------------------------------------------------------------------------------------------------------------

    The solution is to use growth models that recognize schools and 
disaggregated groups who make academic progress but do not make Annual 
Measured Objectives.
    One possibility is to allow those schools to stay in school 
improvement and not force them into corrective action and 
restructuring. Those schools that are in high poverty areas and need 
additional financial resources. One possibility is to fund the high 
poverty schools at 150% of the state allocation.
    2. Lack of respect from state and federal government.
    Allow tribal schools access to all NCLB programs and assure that 
states do not attempt to impose state statutes on tribal governments or 
tribal schools.
    3. Amendments in Attachment A are a collaborative effort with 
members of the Association of Community Tribal Schools Inc. and the 
National Indian School Board Association. These organizations sponsored 
4 meetings on the reauthorization of No Child Left Behind Act. The 
meetings were conducted over the last 2\1/2\ years. The changes focus 
on BIE funded schools.
    4) We are also attaching amendments which would delete from title 
25 of the United States Code provisions which are clearly out of date. 
The continuing presence of provisions to allow agency superintendents 
to withhold rations for failure to attend schools or select specific 
Indian girls to act as unpaid matrons, illustrate this point.
    Mr. Chairman, I submit this testimony on behalf of the Tribal 
schools in the states of Maine, Florida, North Carolina, Mississippi, 
Louisiana, South Dakota, Minnesota, North Dakota, Michigan, Iowa, 
Wisconsin, Kansas, Wyoming, Oklahoma, Montana, California, Washington, 
Idaho, Nevada, Arizona, and New Mexico.
    Mr. Chairman and Members of the Subcommittee, thank you for your 
support in the past and thank you for your continuing support in the 
future. If there is any way on which we may help you in your endeavors, 
please let our schools know.
Footnote
    There are at least 20 programs that are authorized by the No Child 
Left Behind Act that tribal schools are not eligible for but public 
schools can access these programs. Many states do not recognize tribal 
schools as equals to their own public schools. The state of South 
Dakota has required tribal schools to be state accredited if they want 
to apply for any federal flow through funds including 21st Century 
After School Grants.
Attachment A.
    Tribally Controlled Schools Act of 1988
    1) Section 2502(a)(3) (Use of Funds) is amended by adding a new 
subparagraph:
    ``(C) Amendments to grants
    (1) At any time during the academic year for which funds are 
provided under this Act, the school board of the tribally controlled 
school which receives a grant under this Act may request an amendment 
or amendments of the grant by submitting such amendments or amendments 
in writing to the Secretary or appropriately designated representative.
    (2) If the Secretary fails to make a final decision on any 
amendment or amendments submitted under this provision, within 180 days 
after the filing of the request, the Secretary shall ____
    (i) be deemed to have approved such request; and
    (ii) immediately upon the expiration of such 180-day period amend 
the grant accordingly.
    (B) Rights
    A tribally controlled school board tribe or organization described 
in subparagraph (A) may enforce its rights under subsection (a)(2) of 
this section and this paragraph, including rights relating to any 
denial or failure to act on such tribe's or organization's request, 
pursuant to the dispute authority described in section 2507(e) of this 
title.''
    2) To move up the date of the last payment. Note--a similar change 
is required for BIA operated schools, in section 2010 of the BIA 
related amendments, see note 11.
    Section 2506(a)(1)B) is amended by striking the term ``December'' 
and substituting the term ``October''.
    3) Section 2507(a)--this is where deletions from existing chapter 
25 language should be made----
    Legislation administered by the Department of the Interior relating 
to Indian education which needs to be considered for amendment or 
repeal.
    1) P.L. 93-638--Title II, Part A, section 203--requests a study of 
the interrelationship of all programs providing supplemental services 
to Indian students and a report if there is a need for redistribution 
of funds or further services. Now obsolete.
    Part B--authorizes the Secretary of the Interior to help public 
schools with substantial Indian student populations to fund 
construction. I don't think this has ever been used, but just having it 
on the books is a problem. If there is any money for construction, it 
should be used for tribal or B.I.A. schools, and no conversation. This 
should be repealed.
    2) 25 USC 48--says that where the Secretary determines that tribes 
are competent to direct the activities of ``their blacksmiths, 
mechanics, teachers, farmers or other persons engaged for them'', the 
Secretary may give authority over those persons to the tribal 
officials. At least with respect to teachers and education personnel, 
no longer needed. May want to amend or repeal. Enacted in 1834.
    3) 25 USC 104--authorizes the Secretary of the Interior to purchase 
(when advantageous) for use in the Indian service products produced by 
Indian manual and training schools. No longer applicable. Enacted in 
1880.
    4) 25 USC 231--authorizes the Secretary of the Interior to allow 
State officials to enter any reservation for the purpose of inspecting 
schools or enforcing compulsory attendance State laws (doesn't apply to 
IRA tribes unless they allow it). However, is on the books and a 
dangerous precedent (I shudder to think what A.S. Swimmer could have 
done with this). Should be repealed. Enacted in 1929.
    5) 25 USC 278a--prohibits funds from being used for education of 
Indian students in sectarian programs, except where the student chooses 
such a program for postsecondary education. Enacted in 1968.
    6) 25 USC 307 and 308--transfers the Bushnell General Hospital to 
the BIA, to become the Intermountain vocational school. Since 
Intermountain is closed and the property transferred (part is now a 
golf course) , this is obsolete, and should be repealed.
    7) 25 USC 471--authorizes no more than $250,000, annually, for 
loans to Indians for vocational and trade schools, providing not more 
than $50,000 may be used for high school or college and the funds must 
be repaid. There are other programs which cover this, and I am not 
aware it is even being used. Should be repealed. Enacted 1934
    8) 25 USC 66--allows the Commissioner of Indian Affairs to assign 
the duties of an Indian agency superintendent to an education officer 
or superintendent of an Indian school whenever he determines such 
officer can conduct the duties, provided the pay of such officer may 
then be increased by no more than $300.00 per annum. This was 
overridden by section 1126 of P.L. 95-561 and should be repealed. 
Enacted in 1972.
    9) 25 USC 101--payment for transshipment of goods by wagon from a 
central point to a school shall be paid for from funds appropriated for 
that school. Probably doesn't fit anymore and should be repealed. 
Enacted in 1913.
    10) 25 USC 102--costs for inspection, storage, transportation and 
so forth for coal for schools shall be paid for from a support fund of 
the school or agency for which the coal was purchased. I am not aware 
that this is still a problem or that if coal is used, it is not being 
paid for from some other fund. Anyway, I suggest it is not needed, and 
should be repealed. Enacted 1920.
    11) 25 USC 155--All miscellaneous revenues produced ``from Indian 
reservations, agencies and schools'' (except for `Five Civilized 
tribes') shall go to the Treasury, into an account called ``Indian 
monies, proceeds of labor'' and may be available for the Secretary to 
use for the benefit of Indians. This runs counter to the idea that 
money produced by the actions of the school stays with the school, and 
could complicate the student products part, the investment part, the 
tuition staying at the school section and others. I suggest its repeal. 
Enacted in 1883, updated in 1928. This would seem to be a relic of the 
old Indian industrial and agricultural school era.
    12) 25 USC 271--The President, in each case where he deems it shall 
improve `the habits and conditions' of the Indians, and where the tribe 
agrees, may employ `persons of good moral character'' to instruct the 
Indians in agriculture and their children in reading, writing and 
arithmetic, under such rules and regulations as he shall provide. Of 
great historic interest, but of no purpose today. I suggest its repeal. 
Enacted in 1819.
    13) 25 USC 272--the President shall appoint, by and with the advice 
and consent of the Senate, a person with knowledge and experience in 
the ``management, training and practical education of children'' to be 
``Superintendent of Indian Schools'' and to visit any school operated 
by the government or funded with Federal funds and report to the 
Commissioner of Indian Affairs on deficiencies and remedies, with 
reports also made to Congress. This does not sound like a staff 
position to the Commissioner. It sounds more like a school inspector, 
who would be separate from the Indian Service. As such, while this 
provision may be out of date and is no longer used, it is an idea which 
may merit some consideration. However, with respect to the provision 
itself, it is obsolete and I recommend repeal. Enacted in 1889.
    14) 25 USC 273--the Secretary of the Army may detail officers, not 
above the rank of captain, to special duty in Indian education. I 
really don't think we need this anymore, and I suggest repeal. Enacted 
in 1879.
    15) 25 USC 274--the Commissioner of Indian Affairs may hire Indian 
girls as assistant matrons and Indian boys as farmers and industrial 
arts teachers in all Indian schools, where practicable. Repeal. Enacted 
in 1897.
    16) 25 USC 275 Teachers in schools may be allowed, in addition to 
annual leave, educational leave in every alternate year, provided they 
receive no additional pay, for attendance at educational gatherings, 
conventions, institutions and training schools, where it would be in 
the interest of the government. I believe this provision has been 
overtaken by other regulations and laws and that it is no longer 
necessary. Repeal. Enacted in 1912, updated as late as 1957.
    17) 25 USC 276--the Secretary of the Army is authorized to set-
aside vacant posts and barracks for normal and industrial schools `for 
the youth from the nomadic tribes' and to detail Army officers to aid 
in the education. With the next round of base closures under 
consideration, lets not be hasty. Anyway, I think this can be repealed. 
Enacted in 1882.
    18) 25 USC 277--the former Fort Apache military post is to be 
turned into the Theodore Roosevelt Indian school, providing the land 
remains with the Army and is under the control of the Secretary of the 
Interior only so long as used as a school. I foresee problems with 
this. Maybe we should change, so the land was transferred and becomes 
tribal if no longer needed as a school. In any case, should be 
reworded. Enacted in 1923.
    19) 25 USC 279--Mission schools on reservation serving Indian 
students are to receive the same rations of food and clothing which 
such children would receive if living at home. This is a stumper. Do 
these still exist? If so, is this a backdoor way of getting them some 
help? Do we want to do so? Enacted in 1906
    20) 25 USC 280--grants patents of up to 160 acres to mission 
schools functioning as of Sept. 21, 1922, with reversion of land to 
Indians if the school ceases to function. Are there any of these 
around? Enacted in 1922.
    21) 25 USC 280a--essentially grants patents for lands for 
missionary or private schools serving Indians in Alaska (uses term 
``Indian''). Do any of these still exist? Enacted in 1900.
    22) 25 USC 281--says that any children of any Indian who has taken 
land in ``severalty'' (that is, in fee) is still eligible for Federal 
educational services. Hasn't this been overrun by time and practice. 
Maybe, should be left, just to be sure. Otherwise, I would suggest 
making it plain in our rewrite of P.L. 95-561. Enacted in 1894.
    23) 25 USC 282--authorizes the Secretary to promulgate and enforce 
mandatory school attendance reg.s Enacted in 1920.
    24) 25 USC 283--authorizes the Commissioner of Indian Affairs to 
withhold food, clothing, annuities, and other rations from parents of 
children who do not attend school, provided that adequate schools are 
available and that notice of this is given to parents. The schools 
covered are obviously boarding schools. Should be repealed . Enacted in 
1893.
    25) 25 USC 285--specifically authorizes the withholding of rations 
from Osage parents if their children do not attend school. No reason 
given why they were singled out. Suggest repeal. Also obviously applies 
to boarding schools. Enacted 1913.
    26) 25 USC 286--no child may be sent out of State to a boarding 
school unless with the consent of the parents or next of kin, and the 
Indian agent may not withhold rations or take any other steps to coerce 
such consent. Sounds like a good idea to me, and maybe one we should 
incorporate into the rewrite of P.L. 95-561. However, this particular 
provision should probably be repealed (though seems to do no real harm) 
Enacted in 1894.
    27) 25 USC 287--Once a child is in school, the child may not be 
taken to a school in another State without parental consent. See 
comment above. Enacted in 1896.
    28) 25 USC 290--prohibits the transportation ``at government 
expense'' of any child under the age of 14 out of State to attend an 
Indian school. What does this mean for some Navajo and off-reservation 
boarding schools. I think it is being ignored, but needs to be 
considered. Enacted in 1909.
    29) 25 USC 291--Where there is any property at an Indian school not 
necessary to that school, the Secretary is authorized to move it to 
another Indian school, where it is needed. Enacted in 1907.
    30) 25 USC 292--the Commissioner of Indian Affairs may suspend or 
discontinue any education program at his discretion and dispose of the 
property and furnishings, with the money to be used for the benefit of 
other schools (remember Phoenix Indian School) as the Secretary of 
Interior directs. This is directly contrary to the current language in 
P.L. 95-561 and should be repealed, though the idea that if any closure 
takes place, all the proceeds should be used for Indian education is an 
idea to be considered for incorporation into P.L. 95-561 (remember 
Intermountain and Phoenix [where some land swapped for everglades swamp 
for alligators]--could be overridden by Appropriations but gives 
something to argue). Enacted in 1904.
    31) 25 USC 293--Another sale provision. Authorizes the Secretary of 
the Interior to sell any property brought by the U.S. for use as a 
school no longer needed for a school and put the money into the 
Treasury, unless the property originally brought with tribal funds, in 
which case it should be put into the tribal funds. See discussion on 
preceding section. Should be repealed and substituted with language 
that proceeds must be used for education, with tribes having first 
option (I think they may have this under GSA language). Enacted in 1917
    32) 25 USC 293a--the Secretary is authorized to transfer to State 
or local governmental entities any land and improvements used for an 
Indian school and no longer needed for such purpose, retaining a right 
of reverter if the land is not used for a school ``or other public 
purposes'' and retaining mineral and prospecting rights. If land held 
in trust, requires tribal permission. No longer necessary--should be 
repealed. Enacted 1953, updated as late as 1962.
    33) 25 USC 294 The Secretary of the Interior is authorized to sell 
, at no less than appraised value (remember Phoenix) ``any abandoned 
day or boarding school plant or abandoned agency building'', with the 
proceeds to be credited to the Indians ``to whom said lands belong'' 
(What does this mean?) Suggest covered now under GSA language and is no 
longer necessary. If want the idea, than move to rewrite of P.L. 95-
561, with money to be used for education. Enacted 1920.
    34) 25 USC 295--All expenditure of funds for education shall ``be 
at all times under the supervision and direction of the Commissioner'', 
and shall be spent `` in conformity with such conditions, rules, and 
regulations'' as he shall prescribe. He is also to control the 
``conduct and methods of instruction''. Runs contrary to 93-638, 95-561 
and 100-297 and should be repealed. Covered by other statutes. Enacted 
1908.
    35) 25 USC 302--From schools being operated, the Secretary is to 
designate one as ``an Indian Reform School'' and make ``all needful 
rules and regulations for its conduct''. Permission of parents or next 
of kin shall not be required for placement here. I think we have 
outgrown this, though it is a concept discussed as recently as 1976. 
Repeal. Enacted 1906.
    36) 25 USC 304--In South Dakota, the course of study taught at any 
Bureau school shall, upon a majority vote of the parents of the school, 
be the course of study taught in South Dakota schools. No longer 
necessary--Repeal. Enacted 1949.
    37) 25 USC 304a--the Secretary is to carry out a study of education 
of Indian students in the continental U.S. and Alaska and report to 
Congress. To be done by 1958 (never heard of it--doubt it was done). 
Obsolete and should be repealed. Enacted 1956.
    38) 25 USC 304b--there may be student funds and student activity 
associations established and funds maintained for these purposes, under 
Bureau regulations. Should be incorporated in a rewrite of 561. Enacted 
1959.
    Below are amendments to Title XI of 95-561 (as amended)
    4) Caveat on new or expanded schools below (new subsection (e)(7)), 
but until we get the appropriations language lifted, this is moot----
    Section 2001(e)(1)(A(i)) is amended by deleting ``The Secretary'' 
and substituting ``Subject to the limitations of paragraph (7) of this 
subsection, the Secretary.''. Clause (i) is amended by deleting 
``Bureau funded school;'' and substituting the term ``Bureau funded 
school as of the date of enactment of ____ (whatever this new bill is 
called;''
    Section 2001(e) is amended by adding at the end thereof the 
following new paragraph:
    ``(7) Limitation
    The Secretary shall not commence funding for any new school or 
extension or any program changes submitted by application subject to 
the provisions of this subsection which would otherwise commence 
funding under paragraph (5) of this subsection in any Fiscal Year in 
which appropriations for programs funded under section 1127 of this 
Title are not more than the funding for such programs (adjusted for 
____ whatever they are using) in the Fiscal Year preceding the Fiscal 
Year in which the application change would otherwise become effective, 
provided that the new school or change for any approved applications 
will be commenced, in the order in which such applications were 
approved, beginning in any Fiscal Year in which appropriations referred 
to exceed the limitation amount, and shall continue in each succeeding 
Fiscal Year.''
For reference
    Finally, Section 2001 (d)(7): for reference, I know Leg. Counsel 
will have the latest for mark-up, but those working off the web will 
miss the change in (d)(7) which was included in an appropriations bill. 
Don't let anyone mess with this provision without a lot of thought.
    Source: H.R.2361 which was included in the Consolidated 
Appropriations Act PL 108-447, Department of the Interior, Environment, 
and Related Agencies Appropriations Act, 2006 (Enrolled as Agreed to or 
Passed by Both House and Senate).
    SEC. 127. Section 1121(d) of the Education Amendments of 1978 (25 
U.S.C. 2001(d)) is amended by striking paragraph (7) and inserting the 
following:
    `(7) APPROVAL OF INDIAN TRIBES--The Secretary shall not terminate, 
close, consolidate, contract, transfer to another authority, or take 
any other action relating to an elementary school or secondary school 
(or any program of such a school) of an Indian tribe without the 
approval of the governing body of any Indian tribe that would be 
affected by such an action.'.
    Also, for reference, here is the moratorium language:
    Source: any final Interior approps bill since FY 1996
    Under: General Provisions, Department of the Interior
    Appropriations made available in this or any other Act for schools 
funded by the Bureau shall be available only to the schools in the 
Bureau school system as of September 1, 1996. No funds available to the 
Bureau shall be used to support expanded grades for any school or 
dormitory beyond the grade structure in place or approved by the 
Secretary of the Interior at each school in the Bureau school system as 
of October 1, 1995. Funds made available under this Act may not be used 
to establish a charter school at a Bureau-funded school (as that term 
is defined in section 1146 of the Education Amendments of 1978 (25 
U.S.C. 2026)), except that a charter school that is in existence on the 
date of the enactment of this Act and that has operated at a Bureau-
funded school before September 1, 1999, may continue to operate during 
that period, but only if the charter school pays to the Bureau a pro 
rata share of funds to reimburse the Bureau for the use of the real and 
personal property (including buses and vans), the funds of the charter 
school are kept separate and apart from Bureau funds, and the Bureau 
does not assume any obligation for charter school programs of the State 
in which the school is located if the charter school loses such 
funding. Employees of Bureau-funded schools sharing a campus with a 
charter school and performing functions related to the charter school's 
operation and employees of a charter school shall not be treated as 
Federal employees for purposes of chapter 171 of title 28, United 
States Code.
    Finally delete Subsection 1001(h), which was the GAO study on 
funds. They never really did anything, and this is obsolete.
    5) Section 2002(a)(1) is amended by inserting the term ``facilities 
requirements'' between the terms ``space,'' and ``and''. At the end of 
the paragraph, add the following new language:
    ``All the factors set forth in this paragraph shall be set subject 
to the procedures and requirements of section 2017 of this Title.''
    6) This is the problem: the BIA is requiring tribal resolutions for 
each child for each year, which increases paperwork, who attends a non-
reservation boarding or school site. The hammer they are using is 
cutting off travel funds for the student. That was never the intent.
    Section 2004(f) is amended by adding the following new paragraph:
    ``(3) Construction
    The provisions of subsection (d)(2) of this section shall be 
construed to require only one tribal authorization for each student for 
the duration of attendance at an off-reservation home living school or 
dormitory, provided that each tribal council may determine to cover 
more than one student.''
    7) They are for studies and plans, which were never done----
    Section 2005 (a) and (b) are deleted and the Subsections re-
designated accordingly.
    Also, education control of facilities management for schools (un-
numbered as of yet) Direction and supervision of certain personnel and 
operations of the office of facilities management and Construction
    (1) In general
    Any other provision of law notwithstanding, not later than 180 days 
after date of enactment , the Director of the Office shall direct and 
supervise of all aspects of the operations of all personnel directly 
and substantially involved in the provision of services to schools 
operated by or funded under Section 1127 of this Act provided prior to 
such date by the Office of Facilities Management and Construction, or 
other entities within the Bureau or Department, relating to operations 
and maintenance, major or minor improvement and repair, and any 
facilities information system relating to facilities which are 
primarily involved with the provision of education services.
    (2) Transfers
    The Secretary of the Interior and the Assistant Secretary for 
Indian Affairs shall, not later than ____ , coordinate the transfer of 
functions relating to this provision to the Director.
    8) Section 2007--As for clarification of travel----
    Section 2007(a)(1)((B)(ii) is amended by inserting after the term 
``transportation'' the following ``including but not limited to 
transportation related to necessary student academic or home living 
related activities''.
    9) Section 2008--To be sure the recipient and not the BIA defines 
what these funds will be used for, subparagraph 2008(a)(1)(B) is 
amended by deleting ``may include'' and substituting ``may, at the 
determination of the recipient of a grant made pursuant to this 
section, include''. if the Study provisions no longer needed (and I 
doubt they are) then:
    Section 2008 is amended by deleting subsection (i) and 
redesignating all remaining subsections.
    10) Section 2009--Delete entire section--this is just embarrassing. 
This means renumbering the sections, which everybody has to get used to 
a new nomenclature for the rest of the bill, and everything written 
before now is obsolete. Anyone got a totally new, meaningless (or even 
meaningful) section to stick in here to help?
    11) Section 2010 currently (see above -probably renumbered the 
sections).
    The language from the TCSA is much better and rather than cut and 
bite, I suggest the following:
    Section 1010(a) is amended by deleting subsection (a) and 
substituting the following:
    ``(a) Payments
    (1) In general
    Except as otherwise provided in this subsection, the Secretary 
shall make payments to grantees under this chapter in two payments, of 
which----
    (A) the first payment shall be made not later than July 1 of each 
year in an amount equal to 80 percent of the amount which the grantee 
was entitled to receive during the preceding academic year; and
    (B) the second payment, consisting of the remainder to which the 
grantee is entitled for the academic year, shall be made not later than 
October 1. ``
    Section 2010(a)(3)(A) is amended by deleting the term ($50,000'' 
and substituting the term ``$100,000''/Clause (2010(a)(3))(A)(i) is 
amended by deleting the term ``$15,000'' and substituting the term 
``$25,000''.
    Furthermore, I suggest we delete the sequestration language (or at 
least figure out if still applicable):
    Section 1010(a), as amended above, is amended by deleting (4).
    12) Section 2015 deals with an annual report and audit--to my 
knowledge, this isn't done, but I am looking for leverage here--if we 
amend this to include a new provision regarding a computation of the 
amount to conform to the regulation dealing with ISEF and a minimum 
amount (see below) then we can at least get that amount before 
Congress. It won't work u8nless people (mainly on the Hill) hold the 
BIA to actually doing it, but the first step is to get something in 
statute which can then be enforced. Also, putting it here and relying 
on something already in the regulations makes it harder to argue 
against the provision. Finally, I tied it to a date, because if the BIA 
is smart, they will delete the reg.
    Section 2015 is amended by redesignating the current provision 
``(b) Budget request'' as (b)(1) Budget request'' and adding the 
following new paragraph immediately following that provision:
    ``(2) The annual budget request for the education programs of the 
Bureau, as submitted as part of the President's next annual budget 
request under section 1105 of title 31 shall include a computation of 
the factors included in 25 CFR Part 39.804 et seq, as in effect on ____ 
, based on each preceding academic year's information relating to 
student counts and other information.''
    Information--you referenced the minimums in the regulations 
already--how does this mesh? They are not in 25 CFR Part 32 (which is 
Education policies) but they are in 25 CFR 39 (39.804 et seq.) The 
reason I point out they are not in policies is that within 39, which 
deals with funding, there are two clear provisions 39.201 and 39.101 
which clearly state the ISEP has nothing to do with what the program 
actually cost (they are a stitch and should be referred to the 
Committees time and time again--I have never seen the like). If they 
were in the policies, we would be in a stronger position to use them.
    13) Section 2018--dealing with regulations and negotiated rule 
making--I think if you include/re-state the definition of regulation 
already in the Act in Section 2003(b, there can't be too much debate. 
If they say it is already in there, then say you want a reference, for 
clarity. This will get you further than trying to put in manuals, etc., 
per se.)
    Section 2018 is amended by adding the following new subsection:
    ``(d) Definition of regulation
    In this section, the term ``regulation'' means any rule, 
regulation, guideline, interpretation, order, or requirement of general 
applicability prescribed by any officer or employee of the executive 
branch.''
    Attachment B.
    25 CFR 39.100 What is the Indian School Equalization Formula?
    The Indian School Equalization Formula (ISEF) was established to 
allocate Indian School Equalization Program (ISEP) funds. OIEP applies 
ISEF to determine funding allocation for Bureau-funded schools as 
described in Sec. Sec.  39.204 through 39.206.
    25 CFR 39.101 Does ISEF assess the actual cost of school 
operations?
    No. ISEF does not attempt to assess the actual cost of school 
operations either at the local level or in the aggregate at the 
national level. ISEF provides a method of distribution of funds 
appropriated by Congress for all schools.
    25 CFR Subpart H-Determining the Amount Necessary To Sustain an 
Academic or Residential Program
    39.801 What is the formula to determine the amount necessary to 
sustain a school's academic or residential program?
    (a) The Secretary's formula to determine the minimum annual amount 
necessary to sustain a Bureau-funded school's academic or residential 
program is as follows:
    Student Unit Value x Weighted Student Unit = Annual Minimum Amount 
per student.
    (b) Sections 39.802 through 39.807 explain the derivation of the 
formula in paragraph (a) of this section.
    (c) If the annual minimum amount calculated under this section and 
Sec. Sec.  39.802 through 39.807 is not fully funded, OIEP will pro 
rate funds distributed to schools using the Indian School Equalization 
Formula.
    39.802 What is the student unit value in the formula?
    The student unit value is the dollar value applied to each student 
in an academic or residential program. There are two types of student 
unit values: the student unit instructional value (SUIV) and the 
student unit residential value (SURV).
    (a) The student unit instructional value (SUIV) applies to a 
student enrolled in an instructional program. It is an annually 
established ratio of 1.0 that represents a student in grades 4 through 
6 of a typical non-residential program.
    (b) The student unit residential value (SURV) applies to a 
residential student. It is an annually established ratio of 1.0 that 
represents a student in grades 4 through 6 of a typical residential 
program.
    39.803 What is a weighted student unit in the formula?
    A weighted student unit is an adjusted ratio using factors in the 
Indian School Equalization Formula to establish educational priorities 
and to provide for the unique needs of specific students, such as:
    (a) Students in grades kindergarten through 3 or grades 7 through 
12;
    (b) Special education students;
    (c) Gifted and talented students;
    (d) Distance education students;
    (e) Vocational and industrial education students;
    (f) Native Language Instruction students;
    (g) Small schools;
    (h) Personnel costs;
    (i) Alternative schooling; and
    (j) Early Childhood Education programs.
    39.804 How is the SUIV calculated?
    The SUIV is calculated by the following 5-step process:
    (a) Step 1. Use the adjusted national average current expenditures 
(ANACE) of public and private schools determined by data from the U.S. 
Department of Education-National Center of Education Statistics (NCES) 
for the last school year for which data is available.
    (b) Step 2. Subtract the average specific Federal share per student 
(title I part A and IDEA part B) of the total revenue for Bureau-funded 
elementary and secondary schools for the last school year for which 
data is available as reported by NCES (15%).
    (c) Step 3. Subtract the administrative cost grant/agency area 
technical services revenue per student as a percentage of the total 
revenue (current expenditures) of Bureau-funded schools from the last 
year data is available.
    (d) Step 4. Subtract the day transportation revenue per student as 
a percentage of the total revenue (current revenue) Bureau-funded 
schools for the last school year for which data is available.
    (e) Step 5. Add Johnson O'Malley funding. (See the table, in Sec.  
39.805)
    39.805 What was the student unit for instruction value (SUIV) for 
the school year 1999--2000?
    The process described in Sec.  39.804 is illustrated in the table 
below, using figures for the 1999--2000 school year:
    Step 1--$8,030 ANACE.
    Step 2--$1,205 Average specific Federal share of total revenue for 
Bureau-funded schools.
    Step 3--$993 Cost grant/technical services revenue as a percentage 
total revenue.
    Step 4--$658 Transportation revenue as a percentage of the total 
revenue.
    Step 5--$85 Johnson O'Malley funding.
    Total: $5,259 SUIV.
    39.806 How is the SURV calculated?
    (a) The SURV is the adjusted national average current expenditures 
for residential schools (ANACER) of public and private residential 
schools. This average is determined using data from the Association of 
Boarding Schools.
    (b) Applying the procedure in paragraph (a) of this section, the 
SURV for school year 1999--2000 was $11,000.
    39.807 How will the Student Unit Value be adjusted annually?
    (a) The student unit instructional value (SUIV) and the student 
unit residential value (SURV) will be adjusted annually to derive the 
current year Student Unit Value (SUV) by dividing the calculated SUIV 
and the SURV into two parts and adjusting each one as shown in this 
section. (1) The first part consists of 85 percent of the calculated 
SUIV and the SURV. OIEP will adjust this portion using the personnel 
cost of living increase of the Department of Defense schools for each 
year. (2) The second part consists of 15 percent the calculated SUIV 
and the SURV. OIEP will adjust this portion using the Consumer Price 
Index-Urban of the Department of Labor.
    (b) If the student unit value amount is not fully funded, the 
schools will receive their pro rata share using the Indian School 
Equalization Formula.
                                 ______
                                 
    Chairman Kildee. Thank you very much, Dr. Bordeaux. And 
thank all of you for your excellent testimony. It certainly 
indicates the importance of this Committee coming out and 
talking to people who are literally in the field and know the 
needs of--the unique needs of education in Indian Country.
    There are various types of Indian schools. There are the 
BIA schools or the contract schools. And thank you for your 
comment on what I did back in 1979. And there are tribal 
schools. The contract, the BIA and public schools.
    Governor Rhodes, in your sovereign nation do you have a 
mixture or are your schools state public schools or BIA schools 
or contract schools or a mixture of those three?
    Governor Rhodes. Yes, Mr. Chairman. We do have a mixture of 
parochial and public school. Yes.
    Chairman Kildee. Again, Governor.
    Governor Rhodes. My answer was that there are a mixture of 
schools here in Gila River.
    Chairman Kildee. Okay. So you have contract schools and BIA 
schools and some state public schools?
    Governor Rhodes. Yes.
    Chairman Kildee. So Johnson O'Malley money would flow to 
those public schools then?
    Governor Rhodes. Yes. I am going to let Dr. Girard respond 
to the Johnson O'Malley.
    Chairman Kildee. Sure. Dr. Girard?
    Dr. Girard. Yes. Good morning.
    The Community is comprised of every kind of school you can 
list. We have got private, we have Catholic, Seventh Day 
Adventist Christian, charter schools, BIA grant schools and 
public schools. And we have got every kind. And we are working 
to unify those schools.
    Our Johnson O'Malley funding is not used like most tribes 
use the funds where they just issue certain amounts to the 
public schools that are in their communities serving their 
students. Rather Gila River employs actual staff. We call them 
Johnson O'Malley Student Advisors. And right now in our program 
we have eight advisors to cover the two ends of the Community, 
the east end and the west end.
    The funds we receive right now do not cover operational 
costs, and they cover maybe two staff salaries with all the 
benefits. So the tribe is supplementing those funds by at least 
80 percent.
    Chairman Kildee. Thank you very much. That clarifies that 
for me and very concisely.
    Chairman Nosie, you discussed the need to improve teacher 
recruitment training and retention. What specific resources do 
teachers in the Fort Thomas and San Carlos School Districts 
need to improve their ability to help their students and what 
could we do to help you retain those teachers?
    Chairman Nosie. Well, Chairman Kildee, what we see in our 
teaching work is that we really need to have more funding going 
into the programs that have more. And I think it's going to 
take a visit to every school--to every unique Indian tribe. And 
it's going to take a visit or that information to be provided 
to show that there are some programs that have been working 
already in the schools, but more funding to reach out for the 
teachers, professional training as far as how they can interact 
with the students. Because being an isolated area, it brings a 
lot of different problems and so we really need a program 
design that's going to have the students and the teachers 
interact together.
    Retaining, it falls back on the same thing. Being an 
isolated area all the problems that we have interact together; 
the housing, supporting housing funds, economic development. So 
I think those are the key things that we really need to look 
at, especially in an isolated area how we could bring that 
together so that we look at retaining teachers on the 
reservation. But funding going to how teachers can interact 
with students and having parent involvement will be very 
important.
    So as we release more of our resources, funding would be 
good channeled into our schools.
    Chairman Kildee. Thank you very much.
    Mr. Miller, on your schools at Sault Ste. Marie
    do you have a variety of schools also? Do you have BIA 
schools and state schools and contract schools?
    Mr. Miller. Yes. We're pretty much like Gila River. It's 
public, charter, BIA grant schools.
    Chairman Kildee.
    You know, it's interesting that you talk about the $1500 
less per student in the BIA schools. That's even harder for you 
then because Michigan itself in 2006 is underfunded. The 
President has his budget submitted to Congress. Michigan was 
shortchanged just in one year $331 million for Title I. So you 
lost money there for your public school services and you lost 
money through the BIA shortfall also.
    Mr. Miller. Yes. There is nothing like taking it across the 
board. That is what we are doing right now.
    Chairman Kildee. You know, really it is a shame. Education 
should be one of our top priorities. The one hopeful thing is 
that the budget that was passed just about a month ago, the 
budget before we do the appropriations, increased two areas in 
this nation's priorities; health and education. One of the big 
problems, of course, is that about five years ago, not with my 
vote, they cut taxes $2 trillion. Not with Congressman 
Grijalva's vote either, they cut taxes $2 trillion. You need 
revenue for expenditures. And really you've been a victim of 
that.
    Mr. Miller. Right. In the State of Michigan the public 
school systems that handle a number of the Native students have 
recently just taken a $125 cut at the end of the normal school 
year. So they are being stressed even further from their 
operating budgets. And indication is it is something that is 
not going away. That is something that the state government and 
the Federal Government has to address. This is not going to be 
a one time fix. That is something that will be here 100 years 
from now, we will be having the same concerns that education be 
funded adequately. And, hopefully, some day both the State and 
Federal Governments realize that fund it adequately so we are 
not having our meetings here to discuss how to make education, 
or how to treat things to do with less money. Hopefully, we 
will have an over abundance of money, which would be a nice 
problem for a change.
    Chairman Kildee. And I will yield to Congressman Grijalva. 
What has emerged here is that when we look at both the 
authorization of No Child Left Behind or any of the education 
bills and at the appropriation, we should put our glasses on to 
look at how this will especially adversely effect Indian 
students. Because you are hit with a double or triple whammo, 
are you not, as in Gila River?
    Mr. Miller. Yes. We take the domino effect all the time.
    Chairman Kildee. Thank you very much.
    And now I yield to the Gentleman from Arizona, Congressman 
Grijalva.
    Mr. Grijalva. Thank you. Thank you, Mr. Chairman.
    And I am struck by obvious fact, and I believe this is why 
this hearing is important and why the reauthorization as it 
relates to Native American communities is so important, that in 
most tribal nations the population between 13 and 21 represents 
almost half of the population of those nations. So what we are 
talking about here is about the future. That is not counting 
the babies under 13 at this point. That is the future that is 
going to be responsible for the communities that they live in 
and are a part of.
    Dr. Bordeaux, if I may, I have a couple of questions for 
you.
    I have heard from my constituents in relationship to ISEP 
that your rolling average has posed significant funding 
problems. You mentioned in your testimony that it is not the 
best way to calculate need.
    And at this point, Mr. Chairman, I would like to ask to 
take this opportunity to submit to the record a letter from the 
Department of Interior's Secretary Weiner requesting $1 million 
to address the shortfall caused by ISEP calculation. And I 
found it interesting. In his letter he admits that this 
regulation has posed problems to schools who have seen their 
enrollments number increase year-to-year, and let me read the 
one point in that letter.
    ``The rulemaking did not make provisions for the two year 
transition period before the three year rolling average is 
fully implemented, the reprogramming funds that provides 
supplemental funding to those schools whose enrollment 
increased in recognition that the schools have not fully 
transitioned. This is a short term issue.''
    I would like to state that I have made an inquiry to BIA as 
to how they consider the problem to be short term since it is 
my understanding that these schools will always being playing 
catch-up due to the misreporting of the student numbers at the 
outset of No Child Left Behind. And I have also followed Mr. 
Kildee's lead and have asked GAO for a report to continue to 
shed light on this.
    As it stands now, ISEP does not exist in statute. And my 
question to you, Dr. Bordeaux, how would you propose a remedy? 
Does Congress create a statute particular to this issue or do 
we leave it through this regulation process?
    Dr. Bordeaux. It would certainly hold more weight if it was 
in statute. There is current regulation right now that requires 
the Bureau to identify the need of what it costs to educate an 
Indian child and what it costs to provide a residential program 
for an Indian child. It is in regulation. And it uses the 
national per pupil expenditure average from the most recent 
number from three or four years ago that is hard data, and adds 
and subtracts the revenue that schools get that would relate to 
that national per pupil expenditure average, including 
transportation, operation, maintenance, and that kind of stuff.
    So I think in my testimony the sample that we used was from 
like maybe eight years ago, but it actually comes out to 
somewhere between $1500 and $1800 less just for ISEP. It does 
not include anything else. There would be a need of $1500 more 
for rated student unit, and that is to educate a child in 
grades four through six and does not count anything else.
    The three year averaging stuff, and you got to remember 
ISEP, Indian School Equalization Program, is a distribution of 
appropriations and nothing more. It does not tell you what the 
need is, it does not do anything else. It just distributes 
whatever Congress appropriates.
    So when they did the three year averaging, if you went from 
100 to 150 to 200 over three years, your three year average was 
150 students and did not recognize those 50 you got until three 
years down the road. So it is always going to be an up and down 
thing. So in order to get any additional revenue, you have to 
increase enrollment every year because the Administration never 
requests the amount that is needed that is based in those 
regulations.
    Mr. Grijalva. And so, as I understand it from what you are 
saying, the power of statute would be the corrective step or 
the remedy at that point?
    Dr. Bordeaux. Yes.
    Mr. Grijalva. Thank you.
    And I have two questions and then I would like yourself and 
Mr. Gilbert to try to give us your perspective on.
    Let me start with one that we just finished in one of the 
hearings. In light of the Reading First scandal that we have 
been dealing with in your experience, both of you gentlemen, 
have the contractors at BIA schools had the expertise in 
culturally and linguistically appropriate approaches in reading 
and language arts or quite frankly, have the contractors been 
predominately non-Native American businesses with a 
supplemental service side?
    Dr. Bordeaux. Non-Native. They are all non-Native because 
the Reading First legislation and the way it is implemented by 
the Administration really restricts what you can use. So there 
might only be seven or eight companies out there that you can 
use.
    Dr. Gilbert. Thank you.
    In my experience coming from the university environment 
providing assistance to tribes, culturally based instruction, 
it has been very successful and very positive for our Native 
students. Let me give you an example, if I may.
    Mr. Grijalva. But my question is particular to this, Dr. 
Gilbert. And I realize that.
    And the question is as we have narrowed the contracting 
options for public schools and I am assuming that it extends as 
well to Nations as to the contractor that has those appropriate 
skills that you represent in the cultural linguistic competency 
and content. And my question is are the contractors that are 
being relied upon to supplement and support students, Native 
American students, do they have that competency that you were 
going to speak to?
    Dr. Gilbert. In most case they're are not a Native. They 
are usually the external contractors that come in and mostly do 
that.
    Mr. Grijalva. Thank you.
    Dr. Gilbert. Provide that service.
    Mr. Grijalva. Last question for both gentlemen and then my 
time has run out, but if you would extend one courtesy. Thank 
you.
    When we consider the growth models what special concerns 
should we as a Committee in this process include for tracking 
the individual progress of Native American students as we go 
through the growth model discussion, through the measurement 
discussion to the testing discussion? If you can provide us 
with a short response or----
    Dr. Gilbert. Yes. My experience, once again, is working 
with school districts is that if you look at how the Native 
American children are assessed by AYP, there is a grave concern 
there because AYP does not assess students individually, they 
assess students across the board or by school. And in my 
opinion I feel that we should take a look at assessing students 
individually. Because each and every student is different.
    One example that I use is that I use the portfolio 
assessment technique, which basically tracks the child from the 
time the student enters our educational system all the way 
through to the time they graduate. That is a more productive 
and more reliable type of assessment.
    Mr. Grijalva. Thank you, Doctor.
    Dr. Bordeaux?
    Dr. Bordeaux. I think there can be a process designed very 
easily to track individual student progress and even progress 
of disaggregated groups so that if you want to look at Native 
populations or look at students with handicapping conditions or 
low income children or, whatever it is you should take those 
children where they are at when they enter that year and track 
their progress through the end of that year and see how they 
are doing and see if they are making progress. If they are 
making progress, then you should recognize that progress and do 
not say well you did not make the standard that is much higher 
right now. You should always reach for that standard and try to 
always make 100 percent of your children proficient, but the 
reality of life is it takes time and it takes each individual 
child to make that progress, not everybody at the same time.
    Mr. Grijalva. Thank you. And thank you for the extra time, 
Mr. Chairman.
    Chairman Kildee. You are very welcome. It is your District.
    Chairman Nosie, on your sovereign land, do you have a 
mixture of schools; public, BIA and contract schools also?
    Chairman Nosie. Chairman, we do have public schools and 
parochial and the one charter school that we have at San 
Carlos.
    Chairman Kildee. Do you have any BIA schools or contract 
schools?
    Chairman Nosie. Not on the reservation, but we do have them 
attending.
    Chairman Kildee. Thank you very much. Thank you.
    And if I may address a question to Governor Rhodes and if 
you wish you may refer to Dr. Girard.
    We have the AYP, adequate yearly progress and then there is 
some talk about using some growth models. Growth models 
actually follow the child rather than the grade level, which is 
what we measure now.
    There is some talk of doing more pilot work in using some 
growth models. And in a Nation as yours with a variety of 
schools, do you think that that might be a place to perhaps use 
some growth models to see how they work vis-a-vis the AYP?
    Dr. Girard. I think that is very feasible with the schools 
that we have in our community. And the public schools are 
already demonstrating consistent growth. And so at the end of 
every school year we have a form that we have each school 
report to the tribe. And they use the same forms so that we can 
measure the data to assess growth or weaknesses.
    So, yes, that can happen.
    Chairman Kildee. That might be a place where we could 
compare how one may work.
    Dr. Girard. Absolutely.
    Chairman Kildee. With growth models you would have to keep 
data on individual students. Because this AYP you say what 
third grade did this year and what third grade did the next 
year, but they are different people, are they not? While with 
growth models you actually measure the specific individuals, 
how they are growing?
    Dr. Girard. Either that or you would do--now I'm drawing a 
blank. But when you have this you follow the same group. You 
know, so third grade this year would be fourth grade the 
following year and fifth grade the year after that. And one or 
two of the schools is doing that also. But with the mobility, 
it is hard. It is tricky to track individual students. And that 
is why we are trying to unify our schools to discourage the 
mobility, say, so that if a student goes from one, say a BIA 
grant school to the Catholic school, they will find that there 
is no difference as far as the philosophy, the rules and the 
standards. And so eventually, theoretically, the kids will find 
that there is no real benefit to go bouncing from school to 
school and they will tend eventually to stay put. And then we 
can follow them that much more.
    Chairman Kildee. And the growth models, the record has to 
follow the child then?
    Dr. Girard. Exactly.
    Chairman Kildee. And could you do that if we did have, say, 
some models out here, growth models, would you see that the 
record could follow the child?
    Dr. Girard. That is what our tracking database is going to 
do. We are implementing one and we expect it to be up and 
running and functioning by August 1. And it will cover student 
attendance and academic progress. So, yes, it will follow as 
long as they stay within the community, yes, we will have their 
record from kindergarten on to the 12th grade.
    Chairman Kildee. Thank you very much.
    Some time I think we will be visiting the schools. Because 
you do find a mix of various types of schools. I think it would 
be very helpful to me personally to go out and visit. I can do 
it up at Sault Ste. Marie also.
    But let me ask another question of Dr. Gilbert. Can you 
discuss ways in which Title VII is helpful to students and how 
we might improve Title VII?
    Dr. Gilbert. I think that as far as an educator kind of 
from the university setting, also a former teacher, Title VII 
has positive aspects to it. One of the things that I highly 
agree with is the assessment as far as providing database fine 
data, you know, where to improve our instruction and our 
techniques an our strategies to work with Native American 
children. Unfortunately for AYP our assessments are determined 
by the State Department of Education. But then again, I think 
that there are some highly qualified instructors out there that 
also provide that kind of needed assessment for Native 
students.
    Chairman Kildee. Thank you very much.
    Again, I will yield to the Gentleman from Arizona such time 
as he may consume.
    Mr. Grijalva. Very kind, Mr. Chairman. I will not abuse the 
privilege. I appreciate that.
    Governor Rhodes, if I may ask you, much discussion has 
happened around No Child Left Behind dealing with the issue of 
truancy, high levels of truancy and high drop out rates. One of 
the questions is do you think that by narrowing the curriculum 
where we are studying those four content areas, that we can 
somehow for the purpose of taking the tests, that we somehow 
contributed to that truancy drop out rates that are increasing?
    Governor Rhodes. Unfortunately--Can you please repeat the 
question?
    Mr. Grijalva. Okay. As we narrow the curriculum so that we 
are concentrating on core subjects that are for test taking 
purposes, so we are teaching to the test. And in the high 
schools there has been indications that one of the unintended 
consequences has been a higher drop out rate and a higher 
truancy rate. And I am asking in your experience has that been 
the case or it has not been the case?
    Dr. Girard. I do not think that the AIMS testing and the 
teaching to the test, I do not think that that is a major issue 
in the truancy. I think it is just something that we all suffer 
as a society and our kids are learning--for our individual kids 
it is a huge cultural shock coming if they attend reservation 
schools and elementary school and they choose to attend a high 
school outside the Community. It is huge. It is very 
intimidating. Because they are coming from a school with 200 to 
300 kids, and maybe in instances of less than 200 kids, to 
schools with populations of 3,000. And so it is intimidating 
and discouraging. And that is where our Johnson O'Malley staff 
come in.
    When they come to those schools, we are there to help them 
to develop that self esteem and confidence they need to stay 
in.
    But the truancy I think is related to a lack of self 
confidence and just a frustration of getting culturated, 
deculturated.
    Mr. Grijalva. Thank you.
    Anyone, there as a curious statistic--not curious, 
disturbing statistic we had at one of the hearings on drop outs 
and what was going on nationally with No Child Left Behind that 
over 50 percent of the drop outs in this country are coming 
from 15 percent of the high schools in this country. And this 
begs the questions where should we be concentrating your 
resources, but that is another story.
    If I may, Chairman Nosie, and I appreciate you made a 
comment about everything is interrelated; the issues of 
poverty, the issues of health are interrelated to the success 
or failure of many of our students. I think we sometimes narrow 
how we are doing our decisions and forget about the other 
factors that are impacting on a child in a family's life. And I 
appreciate those comments very much.
    One of the factors as it effects your Nation, the issue of 
transportation and the ability to get children back and forth 
and the cost of the consequence. If we could just briefly 
comment on that.
    Chairman Nosie. Congressman, thank you again. I will have 
Ms. Steele answer.
    Ms. Steele. Would you repeat that question, please?
    Mr. Grijalva. Transportation.
    Ms. Steele. Yes.
    Mr. Grijalva. And the pressures and the costs and the 
impediment that that creates for your Nation and your children 
in terms of a successful school, et cetera. I mean what is the 
consequence of those transportation issues that in some Nations 
that I have heard of are severe issues that they have to cope 
with just getting the kids to and from their schools?
    Ms. Steele. Well, I think one of the other--I think people 
mentioned that there is problems with deciding whether, you 
know, they should buy gas or should they not with that last $5 
bill that they have. And in our situation we also have those 
same problems. We have a couple of bus runs that are made on 
the reservation. And often times the children miss the bus. And 
they do not have an alarm clock because children of poverty 
often do not have that, that time element in there. So when 
they are late to school, they will walk there or parents will 
sometimes try to bring them, or they just miss school entirely. 
So transportation is a problem. We do not have any other public 
mode of transportation on the reservations except for the buses 
and if families have cars.
    Mr. Grijalva. Thank you very much.
    Thank you.
    Mr. Miller, one question. This ongoing debate, discussion 
about the reorganization or we are or we are not going to 
reorganization in education if it were to happen, as we have 
talked about, what impact would it have on the children you 
serve or for that matter on Native children all over?
    Mr. Miller. The proposed reorganization that the Bureau was 
trying to implement in BIE would have left us in a state of 
chaos. There was little thought about the logistics of the 
regions as they tried to realign them. It was just a very, very 
poorly thought out plan.
    I believe right now there are two law suits in--three law 
suits in--three that are in the process right now to stop this.
    So as far as the reorganization, we hope it ends up being a 
dead deal and does not go any further than it has to this 
point.
    Mr. Grijalva. Thank you very much.
    Thank you, Mr. Chairman.
    Chairman Kildee. Thank you very much, Congressman Grijalva.
    I understand that earlier this month the Departments of the 
Interior and the Department of Education met with the tribal 
leaders, the school board members and tribal community members 
to discuss formation of various laws including No Child Left 
Behind that impact Indian education. Were any of you involved 
with those meetings or do you have any comment on them?
    Mr. Miller. Last week I attended the consultation hearing 
in Rapid City, and the consultation item was there is a 
perception within the Administration that there is a conflict 
between No Child Left Behind, primarily Title I and some other 
pieces, and the Improving American Schools Act or the Indian 
Self Determination and Education Assistance Act, the on 
contract schools. And I think the conflict exists because over 
the last 10 or 15 years more and more the Federal Government 
has been requesting additional information from schools and 
from tribes and everybody else that has no bearing to those 
laws. They are asking for far too much data that deal with 
individual students, individual staff and stuff like that. And 
so the Department of Education has determined that they think 
that there is conflict between Title I and the Improving 
American Schools Act when in reality the Schools Act, which you 
Mr. Chairman, introduced in 1988, specifically gives tribal 
control of those schools to the local community as long as they 
comply with being accredited and do audits and some other 
things like that. And so there's a conflict up there.
    And I talked to people that went to the one in Nashville. I 
talked to people, the one down here and also over in New 
Mexico. And there was not anybody from the field that saw a 
conflict at all. So it did not exist and they probably wasted 
$50,000 for all those meetings.
    Chairman Kildee. When they meet with you quite often the 
meeting are productive if the right attitude is brought. And I 
am not trying to form your answer for you, but do you feel that 
when the Federal Government meets with the various tribal 
leaders in matters like this that they recognize that this is 
sovereign talking to sovereign or do they not realize that?
    Dr. Bordeaux. The answer is no, most of the time they 
already have an idea of what they want to do. And sometimes--
most of the time they will present it, but sometimes they will 
not. But by the time we start talking to them and trying to 
have a dialogue, their decision is already made and then they 
will try to force that upon tribal governments and tribal 
school.
    Chairman Kildee. So it's not really a give and take 
consultation, it's almost an informational meeting?
    Dr. Bordeaux. Yes. It is not in the true sense of 
consultation as written the No Child Left Behind or in the 
Executive Order.
    Chairman Kildee. And that is one thing very important to 
me, because I keep trying to remind them that they are talking 
sovereign to sovereign.
    You know, many in the Federal Government have this idea of 
the trust responsibility that it is some kind of patronizing 
trust. The trust responsibility came into being to protect you 
from State government. Because very often State government 
would be intruding upon you, certainly when the Cherokee were 
forced from the eastern states to Oklahoma. But the trust 
responsibility is not demeaning or diminished in anyway, shape, 
manner or form by sovereign to sovereign relationship that is 
embedded in our Constitution.
    And anytime that you feel that they are not recognizing 
that, that these are equals talking to equals and not just 
coming to a meeting to be told what is going to happen or to 
discuss what might happen, putting their ideas, your ideas 
together and seeing what consensus you can reach, please let us 
know. Because we have to change some attitudes when these so 
called consultation processes take place.
    Dr. Bordeaux. I think another thing before I sit down is 
that there has been at least two or three times where the 
Bureau of Indian Education have gone to the State departments 
and tried to negotiate some memorandum of agreement on behalf 
of tribal schools and tribal governments without us even being 
involved. There is a big caution out there that needs to go on 
tribal governments and the Federal Government needs to know 
more of what is going on.
    Chairman Kildee. Whenever you hear of any instance of that 
happening, if you could email me or call me. I would like to 
remind them that this is a sovereign to sovereign.
    Yes?
    Dr. Gilbert. Congressman Kildee, I would like to introduce 
Lillian Sparks, Executive Director of NIEA. And I think she can 
provide additional testimony on this issue.
    Chairman Kildee. Thank you very much.
    Ms. Sparks. Thank you, Mr. Kildee.
    I would just go back on Dr. Bordeaux's comments with 
regards to the misperceived idea of what the conflict is 
between Department of Ed and Department of Interior.
    And like Dr. Bordeaux was saying is that there is this idea 
that there is conflict between Schools Act and No Child Left 
Behind and tribally controlled schools being accountable under 
NCLB. And I would just like to say that our schools are already 
accountable. There are provisions provided under Title I. They 
are reporting the information. They are being accountable to 
Department of Education, Department of Interior. And it is not 
very clear in terms of exactly what the consultation issue is. 
And we think that those meetings could be better served to 
actually talk about how the two departments could meet, talk 
together and work out a plan and strategy to better serve the 
needs of Indian students under BIA so that there is 
collaboration among the departments instead of talking about 
who is accountable to whom under Tribally Controlled Schools 
Act and under NCLB. Because that is already very clear under 
the law.
    Chairman Kildee. Thank you very much.
    I think we have got a basis of some of the things that we 
can emphasize to make sure that you have a greater say in 
educating your own people with the obligation of the Federal 
Government to continue to carry out either its treaty 
obligations, its Executive Order obligations or any historical 
or legal ties that are just between the sovereign tribes and 
sovereign United States.
    I have been in Congress 30 years now and I have constantly 
tried to remind people in the Federal Government that they are 
dealing with sovereign nations out there. And sovereignty is 
not determined by size.
    In Michigan, you are probably one of the bigger tribes, Mr. 
Miller, tribes in Michigan. But we have some very small tribes, 
but it is not determined by size. Luxembourg is not a very big 
country, but it is sovereign. Out here in the west, of course, 
you find bigger tribes. But I think it is very important that 
you, and I know you have a great record out here of defending 
your sovereignty, not let someone come in and say we are from 
Washington and we are going to tell you what our results for 
our consultation is. But if you need some help from those of us 
in Congress, please let us know that.
    I got involved in Indian matters 42 years ago. And I do 
read treaties. I do read Executive Orders. I do read these 
various things. And I happened to have read the Treaty of 
Detroit. And in the Treaty of Detroit the Indians of Michigan 
including your ancestors, Mr. Miller, gave up millions of acres 
of land. One thing they were promised in return was education 
in perpetuity. And I read that. And I and Jackie Vaughn, a 
member of the legislature, wrote a bill carrying out this 
treaty; that any Michigan Indian could go to a public college 
in Michigan and the State would pay the tuition. That is still 
the law in Michigan.
    And justice demands that. And when you are going to be a 
seeker after justice, you have to be seekers after your own 
justice. And out here particularly in this area, I find that 
you have a strong feeling towards your sovereignty. And I am 
edified by that.
    I know the Sioux Tribe has really fought hard to make sure 
that neither the State nor the Federal Government encroached 
upon your sovereignty. But there are little things that happen, 
sometimes irritating things but things that really effect you 
and your ability to carry out your responsibilities. We want to 
know that in Congress. Because I am like the Governor here, I 
am going to stay in Congress as long as God and the voters are 
willing. I want to really make sure that one of the things that 
I make a top priority is to protect on a daily basis 
sovereignty.
    And never let them come--I am preaching now--but never let 
them come--they will never come probably and take a big hunk of 
your sovereignty away. They might come a little slice here, a 
little slice there and kind of make a little concession here. 
Just do not let them do it. And out here particularly you will 
find a strong feeling of sovereignty. But keep that going.
    As a matter of fact, I always say, and you can do what you 
want because you are sovereign, you can do with your Nation 
what you want. But I always refer to them as citizens, as I 
mentioned to Governor Rhodes in my office last week.
    You know Mr. Grijalva and I are citizens. We have two 
citizenships. I am a citizen of the State of Michigan, Mr. 
Grijalva is a citizen of the State of Arizona. I am a citizen 
of the United States, as is Mr. Grijalva. You are citizens of 
your respective States. You are citizens of the United States 
with all the rights and responsibilities of those citizenships. 
But you are also citizens of another real sovereignty. You are 
citizens of your own tribe, your own Nation. And I want to help 
you, I want to help you make sure that no one comes with a 
little slice and takes a tiny slice of your sovereignty whether 
it be saying you are coming in for consultation and find out 
here is the result of the consultation. I want to work with you 
on that.
    This has been a good hearing. It has been a good hearing on 
education. It has been a good hearing on sovereignty.
    I was here ten years ago. I can come back and see you, but 
all you can really use that sovereignty, give it a chance to 
have some economic development. You are a really an example for 
indigenous people all around the world.
    I met with people from Australia, or indigenous people of 
Australia. I believe that you have a certain common bond with 
indigenous people and how they are treated by the central 
government.
    So I'm edified. I have learned about education. I learned a 
lot about how you govern yourself out here. I look forward to 
working with you. And I am going to at this point conclude 
thanking all of you. We are all better informed because of 
this.
    The Members, as I mentioned before, will have seven 
calendar days to submit additional materials for the hearing 
record. And any Member that wishes to submit follow up 
questions in writing to the witnesses, you may get some 
questions in writing either from myself or some other members 
who are not here today. If you would coordinate with the 
Majority Staff within the requisite time.
    The hearing is now formally adjourned.
    [The prepared statement of the Navajo Nation follows:]

 Impact of the ``No Child Left Behind Act'' (NCLB) on Bureau of Indian 
              Education (BIE) Funded Schools and Students

            Submitted by: The Navajo Nation, April 28, 2007

    Based on the reported experience of Navajo Nation schools and 
students,\1\ as it has been implemented the NCLB has been a virtual 
disaster for elementary and secondary Navajo Tribal Education.
    The NCLB was conceived out of a US State Public School System model 
and the experience of United States Department of Education (USDEd) 
officials with that model. Its provisions assume a number of 
characteristics of that State Public School Model that are generally 
inapplicable to the BIA funded Federal Indian School system. Several 
examples follow:
    I. The Act assumes that public education in the United States is 
primarily the responsibility of ``State Education Agencies'' (SEAs) and 
``Local Education Agencies'' (LEAs), all of which from the national 
perspective of the USDEd are ``local'' in nature. In the Public School 
Systems:
    Control of public education is lodged primarily at the local State 
government level, as a residual ``State's Right'' never ceded to the 
Federal Government.
    It is exercised by an SEA through more decentralized LEAs, on down 
to the local School level, where it is implemented by a local 
Principal, and subordinate ``Department'' administrators, who are in 
charge of actual instruction.
    At each of these levels, ``public'' control of education is 
maintained, sometimes through public election of top officials, and 
almost universally by the roles of publicly elected Boards of Education 
and/or Parent Policy groups, with varying powers and authorities, to 
whom the top officials at each level report.
    But this is simply not the case with BIA funded schools:
    a) Federal Indian Schools were initially created as a fully 
centralized ``top down'' system, run from Washington DC through a 
hierarchy of appointed Federal officers and subordinate employees. It 
had no school boards, no parent policy groups, and no formal ties to 
any local governments.
    b) The documented failures of this system were found by the 
Congress in 1969 Senate Report on Indian Education to be a ``National 
Tragedy, a National Challenge''. In consequence, a number of measures 
have been instituted since to establish local control of BIE schools 
analogous to that in the Public School systems. This is reflected in 
the resulting law (Title X, Part D Sec. 1131) that ``It shall be the 
policy of the United States to facilitate Indian Control in all matters 
relating to Education.'' \2\
    There is absolutely nothing in the BIA funded school system 
analogous to an SEA.
    c) The BIE Central Office is in no sense `` local'', nor are any of 
its officials accountable to the Indian public at the polls as State 
officials are. It is a distant, unresponsive federal bureaucracy.
    d) BIE is made up of Federal Civil Service employees; career 
bureaucrats with virtually ironclad job security, automatic pay 
increases and generous fringe benefits, irrespective of whether they 
serve any interests aside from promoting their own personal careers.
    e) There is still no publicly elected ``Board'' or ``Public 
Policy'' group (other than the United States Congress itself) to whom 
BIE Washington bureaucrats are in any sense accountable. Further, the 
Indian citizens whose interests they are supposed to serve have no 
recourse other than costly lawsuit against the actions of these 
officials.
    Neither is there anything genuinely analogous to an LEA in the BIE 
school system.
    f) BIE Education Line Offices, previously termed Education Agency 
offices, headed by a Line Officer, are more analogous to the federal 
officer hierarchy of the failed fully Federal system prior to 1969 than 
to Public School Districts.
    g) Because of the sparsity of BIE funded schools, the Line Officers 
oversee large geographical areas more analogous to States than to 
Counties or School Districts (LEAs). They are not readily accessible to 
most Indian families served by the schools they oversee, and are in no 
sense ``accountable'' to them. Further, BIE's current reorganization 
plans (now the subject of tribal lawsuits) would eliminate several 
existing Line Offices and make them even less ``local'' than in the 
past.
    h) ``Agency school boards'' do exist, but the Line Officer is 
actually accountable to a remote federal supervisor in Washington, DC. 
These boards have no direct way to hold a Line Officer accountable for 
his/her actions or inactions, and further, BIE's recent reorganization 
plans would further reduce the authority of the agency school boards 
with regard to Line Office actions.
    i) The Line Officer directly supervises the Principals of the BIA 
operated schools under his or her office, as federal employees. At the 
same time, because of the Indian control laws, he/she has virtually no 
authority over the tribally operated schools in the Agency.
    The analogue to universal public control of public education in the 
State school systems, i.e. the legislated federal policy of ``Indian 
control in all matters relating to education'', has been subject to 
continual obstruction in practice by BIE bureaucrats whose authority 
over Indian people and programs it clearly diminishes.
    j) Trying to implement local level Indian control of BIE services, 
and turning BIE into a ``technical assistance'' agency to facilitate 
that control, has been a generations-long pitched battle between 
Interior's federal employee hierarchy and Indian tribes and leaders 
seeking to implement Indian self-determination for the benefit of their 
citizens.
    k) This battle has produced multiple laws all attempting to bring 
BIE's bureaucrats into compliance with this policy.
    (1) One recent skirmish was BIE's focusing all its efforts, as a 
self-appointed ``State Department of Education'' for the schools whose 
funds flow through it, on developing a cadre of what might be called 
``accountability police to enforce NCLB'' on the schools, especially 
with regard to ``meeting AYP''.
    l) So the ``Indian control'' issue still appears to be in doubt, 
with the most recent BIA/USDEd consultation issue papers (cc attached 
FYI) projecting a ``conflict'' between:
    (1) Indian self-determination legislation; and
    (2) Bureaucratic authority to hold tribal school recipients of 
USDEd supplementary funding ``accountable'' for compliance with their 
regulations.
    II The Act assumes that State and Local school systems have, or can 
generate, the resources to create and adopt system-wide instructional 
content standards and related standards-based test instruments that 
meet USDEd criteria for validity and reliability, to guide consistent 
system-wide public instruction.
    This is in no way true for the BIE school system:
    BIE totally rejected its SEA responsibility for instructional 
system development ``on a regional or tribal basis'', as mandated in 
the Act at Sec. 1116.(g)(A)(i), and has neither developed any such 
systems, nor given any of the resources allotted by USDEd for this 
purpose to Indian Tribes to do the job themselves.
    m) Because of this failure, BIE funded schools have been subjected 
by default to State Public School content standard and testing systems 
designed for native English speaking middle class urban populations, 
with little or no Indian input.
    (1) Despite the commonsense educational principle that if you are 
going to teach a person something, you have to begin with and build on 
what he or she already knows, State school curricula often start far 
beyond the entry level English language skills and mainstream cultural 
background knowledge brought from home by deep reservation Indian 
students.
    (2) Such curricula simply assume a shared student mainstream 
culture background at each grade level, and seek to build on it. This 
is a critical problem for many other ``minority'' populations, but 
unassimilated Indian students from isolated reservations have 
experienced it to a far greater degree than most others.
    III The Act also assumes that the various School Systems generate, 
control, and, if necessary to meet federal standards, can increase 
their own revenue and resources to support appropriate basic public 
education at all levels in the system. Part of this assumption is that 
USDEd funding only ``supplements'' locally generated revenue, and can 
be made contingent on the ``USDEd approved'' use of local revenue as a 
condition of continued receipt of these federal funds.
    This is totally untrue of the BIE. The entire BIE school system 
including tribal schools is 100% federally funded, in direct annual 
competition with the other Bureaus and Agencies in the Department of 
the Interior. At no place in the system is there any way to generate 
any other revenue!
    Further, BIE's basic education funding has been systematically 
constrained by the Executive branch in budget requests over the years, 
as a low priority ``domestic program''.
    n) As a result, many of the local schools have come to regard 
USDEd's funding as an ``in no way supplemental'' resource, critical to 
their survival as an institution. Any ``threat'' to this funding is 
seen as an institutional ``death threat''.\3\
    IV The Act also assumes that the local School Systems generate 
sufficient market share to assure profitability for the commercial 
publication of curricula and teaching materials aligned with their 
State Department adopted, USDEd approved, content standards and test 
instruments.
    Again, this is not true of the BIE school system:
    o) Even if they were a homogenous group, which they are not, all 
the students now in BIE funded schools are not a big enough market to 
support commercial curriculum publication. And that's even if the 
schools had enough funds to purchase new curricula, which many do not.
    Further, there are many tribes, including Navajo, whose students 
really need custom designed curricula built on the tested needs of that 
tribe's member students at different levels, to accommodate for the 
degree of cultural and linguistic assimilation of the students at 
various locations on their reservations.
    V The Act also assumes that the various School Systems have the 
infrastructure and resources to train/retrain and accredit their own 
professional education personnel, and so can be required to upgrade the 
qualification requirements for such personnel as a condition of 
continued receipt of USDEd funds.
    Again, this is simply not the case with BIE education.
    p) The State systems have and operate colleges of education, to 
meet the requirements of their own systems. As a general rule, they 
train their teachers to ``follow the teachers manual'' in the published 
curricula endorsed by the State Department. Few if any train teachers 
to meet the unique needs of on-reservation Indian schools and 
students.\4\
    q) BIE operates no ongoing professional educator training programs 
or institutions in support of its schools. Some few tribes have tribal 
community colleges, but nothing equivalent to the State University 
Colleges of Education.
    VI And finally, the Act assumes that given systematic compliance 
with the educational approaches outlined in the NCLB and other federal 
education funding administered by the USDEd, all students will reach 
grade twelve ``on grade level'' by the end of a 12 year period, 
regardless of individual differences between them. This is sheer 
amateurish nonsense.\5\
What can be done about it?
    IN GENERAL: In approaching reauthorization of NCLB, the Congress 
should openly recognize that with few exceptions the Act is not 
producing the results it envisioned for many of the ``non-standard'' 
students across all school systems. It has many good ideas in it about 
how to achieve results, but the ``one size fits all'' notion needs to 
be rejected outright, and a ``continuous progress for every student 
from a measured beginning point'' model should be adopted instead.
    Perhaps a new title such as ``No Child Abandoned'' might be adopted 
to emphasize the difference.
    Further, in Pub. L. 107-110, Title VII,Sec. 7135m 25USC, Sec. 2020, 
previously existing and reauthorized federal law already authorizes 
formation of and funding for Tribal Departments of Education, but BIE 
has consistently failed to ask for funds in its budget to support their 
formation and operations. This is a ``last straw'' in a long history of 
Interior Department abrogation of its trust.
    Consequently any reauthorization of NCLB should recognize that the 
practice of allocating all USDEd funding for tribal schools through the 
BIA is simply an outmoded artifact of the days before Indian Self-
Determination in Education became a reality. BIE has no authority over 
these schools any more, so why should it control pass through funding 
for them from another federal Department?
    a) This cozy ``stacked bureaucracy'' relationship between federal 
agencies needs to be formally rejected in the Act for the health of the 
system, and a pro-rata percentage of BIE's USDEd administrative 
resources allocated directly to Tribal governments to defray the costs 
of their administering the USDEd programs in their own school systems.
    The Act should, further
    b) specifically apply the ``Indian Control in all matters relating 
to education'' policy to USDEd, not just BIE. It should also clarify 
that such Indian control is exercised only at the Tribal and local 
Indian community levels, not by any federal bureaucrat regardless of 
his or her ethnicity.
    c) Mandate that BIE may only act as the SEA (and pass-through 
funding agent for USDEd supplementary program funds) for the schools it 
directly operates.
    d) Authorize Tribal Departments of Education (and inter-Tribal 
Consortium Departments in the case of tribes with too few students or 
schools to warrant a single Tribe Department), with reasonable and 
appropriate standards and criteria to be met for federal recognition as 
such; and should
    e) promote agreements between Tribal and State governments for 
tribal ``SEA analogous'' oversight of public schools on tribal lands; 
and
    f) Provide specifically for funding of tribal credentialing of 
professional educators to work in tribal schools, as well as tribal 
accreditation of tribal schools independently of the States and 
regional accreditation associations.
    g) Authorize and mandate adequate direct government to government 
funding of such Departments through the same fund from which USDEd now 
funds the State Departments of Education, without going through BIE.
    The Act does provide for tribes to ``waive'' inappropriate 
standards and to propose alternate standards and test instruments in 
their place (Pub. L. 107-110, Sec. 1116 (1)(g)(B). However:
    a) it only allows 60 days for the development and proposal of such 
alternates, and gives approval power to the non-Educator Secretary of 
the Interior; and.\6\
    b) Further, some of the States required two or three years to 
develop their systems, not just 60 days, before achieving USDEd 
technical approval for what they had done.
    Consequently the revised Act should also:
    c) Provide for government to government grants by USDEd directly to 
such Tribal Departments of Education, in sufficient amounts and over 
sufficient lengths of time to finance the development of alternate 
definitions of AYP for all schools on lands under Tribal jurisdiction, 
under Tribal Department oversight and accountability management.
    These should be approved by USDEd directly, with appropriate 
technical assistance through Regional Laboratories or Universities, and 
no deadlines or interference in any way by BIE.
    d) Make the Tribal Departments of Education the pass-through 
funding agents for USDEd supplementary program funds on a government to 
government basis, with appropriate safeguards to assure that such funds 
actually reach the tribally operated schools.
    e) Provide for government to government grants by USDEd directly to 
such Tribal Departments of Education, in sufficient amounts and over 
sufficient lengths of time to finance the development and publication 
of custom aligned curricula and teaching materials to implement 
tribally developed definitions of AYP.
    Perhaps some of the above could be initiated with the Navajo Nation 
on a pilot project basis, once the panic rush deadlines in the current 
Act are eliminated, and reasonable research and development activity is 
allowed for. The Navajo Nation has already created and organized its 
own tribal Department of Education and could undertake such an effort 
quickly.
                                endnotes
    \1\ Except for a few students whose families have already been 
almost totally assimilated into the off-reservation mainstream culture.
    \2\ It is worth noting that, despite the fact that many 
contemporary BIE officials are now ethnically Indian pursuant to 
``Indian preference'' in employment requirements, their actions are 
taken as federal bureaucrats accountable only to higher level federal 
bureaucrats, and in fact constitute the exact opposite of the ``Indian 
control of education'' envisioned in the law. Any pretense that because 
these bureaucrats are ``Indian'' they do constitute such ``Indian 
control'' is simply racism!
    \3\ NCLB's provisions making USDEd funds contingent upon ``making 
AYP'' simply recalls how, in the past, BIA's bureaucrats have used the 
``golden rule'' (i.e. ``He who hands out the gold, rules! '') to try 
and dictate how BIE funded tribal school programs are operated. The 
bitter battles over this past practice were the source of many of the 
constraints on BIE now in the law, as well as the legislated Uniform 
Direct Funding and tribal schools' Indirect Cost Formulas.
    \4\ Being required by accreditation mandates to use teachers and 
administrators trained to operate a wholly different Public School 
system makes about as much sense as requiring a diesel Semi-Truck 
repair garage to use mechanics trained to repair Toyota hybrid sedans.
    \5\ This ``one size fits all'' approach is not only out of touch 
with reality in the BIE funded schools, it is inapplicable everywhere 
else in the nation's Schools, except where they serve the highly 
motivated mainstream students that the State systems almost universally 
built their AYP definitions to benefit.
    \6\ In truth, it takes major resources to develop such systems, and 
the aligned curricula to implement them, that the tribes, with some of 
the poorest populations and land areas in the Nation, simply don't 
have. And Interior has never requested funding in its budgets to enable 
such tribal level development.
                                 ______
                                 
    [The prepared statement of Delia M. Carlyle follows:]

   Prepared Statement of Delia M. Carlyle, Chairman, Ak-Chin Indian 
                               Community

    Members of the Committee, thank you for the opportunity to submit 
written testimony in response to the April 28, 2007 field hearing which 
addressed the impacts of the No Child Left Behind Act (NCLBA) in Indian 
Country. My name is Delia M. Carlyle, and I am Chairman of the Ak-Chin 
Indian Community (``Community''). I have been a member of the 
Community's Council for 20 of the past 25 years. I served as a board 
member of the Maricopa School District School Board for six years; most 
recently in 2006. I also worked at the Community Center for 20 years. 
The Center is where our Early Childhood Development Program is housed 
along with our Day Care.
    Our Community is a small urban community comprised of approximately 
800 members, 305 of which are 17 years of age or younger. We are 
located within Pinal County in the State of Arizona. Due to our small 
size, the Community does not have tribal or BIA schools; instead, all 
of our children attend public school in neighboring Maricopa City. 
According to our 2007 numbers, there are 225 Community members enrolled 
in kindergarten through the 12th grade. Though the Community does not 
directly provide our students' education, we have a vested interest in 
ensuring that these children succeed. Our children need to obtain good 
educations today so they can assume leadership roles in our Community 
in the future. The Community supports our students outside of 
traditional education programs by providing tutoring and Head Start 
Programs through the use of tribal and federal grants funds. Despite 
these contributions, our students are not obtaining Adequate Yearly 
Progress (AYP). My testimony explains some of the contributing factors 
to Native students' failure to obtain AYP, as currently defined by the 
NCLBA.
One of the Key Negative Impacts of the NCLBA is Use of a Standardized 
        Assessment System that Does Not Truly Reflect Student Knowledge
    Assessments are key for proper student placement; however an 
assessment must be appropriate for the student if that assessment is to 
yield accurate results. Assessments are used to identify students who 
have special needs and those who are appropriate for advance placement. 
Like any student, Native students of all ability levels are negatively 
impacted when the assessments do not properly measure student ability. 
Therefore it is important to designing an exam with the test taker in 
mind. Such considerations ensure that the test is appropriate. 
Unfortunately, most standardized exams were not designed with Native 
students in mind. Designing an exam with the test taker in mind does 
not give an edge to the test taker. For example, a school cannot 
accurately assess the knowledge and ability of a 12th grader using an 
exam designed for a 3rd grader. Similar inaccurate results are obtained 
when a Native student is given a test that was not designed with that 
Native student's in mind. The best way to ensure that an assessment is 
appropriate for the student is to incorporate the student's culture 
into the exam, thereby allowing students to relate to the questions 
asked. If Native students cannot relate to the exam, then, those 
students cannot convey their knowledge. If the standardized assessment 
does not enable Native students so share what they know, then those 
students will not be directed to the appropriate resources and services 
to help them continue succeeding.
The Standardized Assessments Administered to Native Students Do Not 
        Incorporate Tribal Culture and Are Not Relevant to and 
        Reflective of Native Students' Knowledge
    In Arizona, tribes were not involved in developing the student 
assessment tool. In Arizona, the assessment tool is called the AIMS, 
which stands for Arizona Instrument to Measure Standard. There has been 
no evidence that any cultural considerations were made or incorporated 
into the AIMS. The AIMS's failure to incorporate student culture has a 
direct impact on student success and AYP rates. Students have higher 
AYP rates when what they learn, and are subsequently tested upon, is 
related to or applicable to the student's life. It is extremely 
difficult for students to convey their knowledge when they cannot 
relate to the questions asked in an assessment test.
    The reported statewide AIMS test results of Native American 
students reveal that, across the board, a majority of Native students 
either fall far below or approach the AYP standards. Few students meet 
the standards. Even fewer exceed the standards. This strongly suggests 
that the AIMS is not asking questions in a way that the Native American 
test takers understand and can relate to. It is interesting to note 
that the AIMS report for the Maricopa schools, which most of our 
students attend, reveals that Native American students do consistently 
better in meeting the AYP goals for Writing than in Math and Reading. 
This suggests that Native students perform better when they are given 
the opportunity to convey their knowledge using their own words, 
instead of answering a multiple-choice question.
Native Students Are Disproportionately Affected by Factors That 
        Negatively Impact Student Achievement Levels, As Reflected By 
        Standardized Assessments
    In addition to inability to relate to the test, Native students are 
disproportionately impacted by other factors that detract from their 
achievement and test taking ability. The levels of domestic violence in 
Indian Country far exceed that found outside of tribal reservations. 
Domestic violence impacts students by drawing their attention away from 
their education to other matters. Instances of domestic violence do not 
schedule themselves around students' educations. These situations may 
occur the night before test day or result in excessive absences while 
the family addresses the situation.
    Truancy is also a factor that impacts student achievement. Students 
who have frequent absences (excused/unexcused) are already in a 
situation of falling behind on their academic program. If the student 
is not there, the student cannot be assessed and properly placed. As 
mentioned earlier, all of the Community's students attend school 
outside of the Community. Like most other students, the Community's 
students must be bussed in or be dropped off by parents. Unfortunately, 
due to the distance between the Community's homes and the schools, if 
one of the Community's students misses the bus, that student may have 
to miss an entire day of school. Often student's families do not have 
access to a vehicle. Even if a vehicle is available, due to the poverty 
levels of Native families, families must choose whether to spend $5 on 
food or gas to get the students to school.
    In addition to increased truancy rates, the distance between 
students' homes and school also causes lower student achievement. 
Native students attending schools off-reservation must travel far 
distances to get to school. Generally speaking, Native students must 
get up earlier than their non-Native peers in order to catch the bus 
and get to school on time. There are studies that conclude that not 
only lack of adequate sleep but also waking adolescent children too 
early in the morning can result in lower test scores. For example, most 
teen's bodies begin producing sleep-inducing hormones at around 10:00 
or 11:00 p.m. This production continues until approximately 8:00 a.m. 
the next morning. In other words, teens bodies tell them to rest until 
8:00 a.m., and their minds and bodies are not awake and ready for 
education until about 9:00 a.m. or so. If Native students must travel 
farther to get to school, they must also rise earlier, thereby 
resulting in higher rates of sleep deprivation among Native students. 
These are just some of the factors that impact Native students' 
achievement, as reflected by standardized assessments; however, simply 
modifying the assessment tools will not address all issues raised by 
NCLBA in Indian country.
The ``Highly Qualified Teacher'' Characteristics, Under the NCLBA, Do 
        Not Recognize the Importance of Understanding the Students' 
        Culture, Including the Ability to Relate Education to Native 
        Students
    Recruiting and retaining highly qualified teachers to teach 
students prior to the assessment is crucial. The current definition of 
a ``highly qualified teacher'' under the NCLBA does not include all 
aspects that make a teacher highly qualified. Notably absent in the 
description of highly qualified teacher characteristics is any 
reference to a teacher's knowledge or willingness to learn and be 
sensitive to the cultures of the student populations the teacher 
serves.
    The ethnic population of each school is unique and the size of 
ethnic groups varies form campus to campus. It is very advantageous for 
school districts to hire teachers who have previous experience working 
with students from similar cultures. In some instances, when dealing 
with some cultures, communication can be a barrier between teachers and 
students in terms of language and dialect. Hiring teachers, as well as 
support staff, who can understand students and their parents, including 
language and culture, has significant impact on the overall school 
system. Understandably, there will be a limited number of teachers and 
other staff who are knowledgeable in the cultural background of 
students from the beginning; however, resources should be made 
available to assist these teachers to learn about their students. 
Programs need to be implemented to give teachers the skills needed to 
incorporate the tradition and culture of all children, Native and 
otherwise.
The Focus of the NCLBA Needs to be Shifted from a Rigid, Penalty 
        Focused System to a System that Recognizes and Measures 
        Individual Progress
    Assuming that assessments are made more appropriate and teacher 
qualifications reflect the need to incorporate the culture, the NCLBA 
poses other problems that any reauthorization should address. Overall, 
the NCLBA focuses on schools and students that do not obtain the AYP 
benchmarks. While it is important to identify when schools are failing 
to properly educate students, the progress that schools do make should 
also be acknowledged. NCLBA needs to be amended to create rewards for 
schools that are making progress. Further progress should not be 
exclusively defined to mean only those schools that make the AYP 
benchmarks. Rewards should be made to schools and teachers who make 
efforts to learn and incorporate student culture. Students' progress 
should be measured individually, not against rigid AYP benchmarks. The 
method of student assessment should be shifted from a system that uses 
a small number of tests to determine student progress to a more 
encompassing assessment system, such as a portfolio assessment system.
Additional Topics that Reauthorization of the NCLBA Should Address
    In addition to reexamining the student assessment systems used to 
meet and comply with the NCLBA, the NCLBA needs to be amended to 
address other factors critical to student success. School districts 
need to be directed to implement After-School Tutoring Programs to 
assist all students in Grades K--12. It is more advantageous for 
students to receive tutoring sponsored by the school districts, as 
students need to be prepared to pass the state assessment tests. 
Tutoring programs on campus allow the use of educational tools and 
support staff is familiar with the assessment tools and test 
instruments utilized by the school district. Schools also need to be 
directed, and given the necessary resources, to collaborate and 
communicate with their feeder schools. This is especially important for 
children at an early age.
    Finally, whether it be fulfilling the original mandates of NCLBA, 
or addressing proposed amendments such as tutoring and school 
collaboration, schools must be supported with funding authorizations 
from Congress. If Congress is truly committed to ensuring that no child 
is left behind, then Congress needs to commit the resources necessary 
to follow through on this policy statement.
Conclusion
    The Ak-Chin Indian Community supports the intent behind the NCLBA 
and believes that, with modifications to address the above discussed 
concerns, the NCLBA can help ensure that Native American students are 
taught by highly qualified teachers and properly assessed, thereby, be 
given an opportunity to receive the best education possible. Thank you 
for the opportunity to submit these written comments.
                                 ______
                                 
    [Letter from Todd Honyaoma, Sr., follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
            
                                ------                                

    [Whereupon, the hearing was adjourned.]

                                 <all>

</pre></body></html>
